<html>
<title> - ESSA Implementation:  Perspectives  From Education Stakeholders On Proposed Regulations</title>
<body><pre>[Senate Hearing 114-801]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-801

                   ESSA IMPLEMENTATION: PERSPECTIVES
                      FROM EDUCATION STAKEHOLDERS
                        ON PROPOSED REGULATIONS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING EVERY STUDENT SUCCEEDS ACT IMPLEMENTATION, FOCUSING ON 
    PERSPECTIVES FROM EDUCATION STAKEHOLDERS ON PROPOSED REGULATIONS

                               __________

                             JULY 14, 2016

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
20-893 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
RICHARD BURR, North Carolina		BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia			BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky			ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine			AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska			MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois			SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina		TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah			CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas			ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

                                     

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                  (ii)

                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JULY 14, 2016

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     3
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky.......     4
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    41
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    43
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    47
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    49

                               Witnesses

Pruitt, Stephen L., Ph.D., Commissioner of Education, Kentucky 
  Department of Education, Frankfort, KY.........................     5
    Prepared statement...........................................     7
Darling-Hammond, Linda, Ed.D., President and CEO at Learning 
  Policy Institute, Charles E. Ducommun Professor of Education 
  Emeritus at Stanford University, Palo Alto, CA.................    14
    Prepared statement...........................................    16
Pletnick, Gail, Ed.D., Superintendent, Dysart Unified School 
  District, Surprise, AZ.........................................    30
    Prepared statement...........................................    32
Harris Welcher, Alison, Director of School Leadership Project 
  L.I.F.T., Charlotte, NC........................................    35
    Prepared statement...........................................    37

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to questions of Senator Murkowski by:
    Alison Harris Welcher........................................    65
    Gail Pletnick, Ed.D..........................................    67

                                 (iii)

 .
                   ESSA IMPLEMENTATION: PERSPECTIVES
                      FROM EDUCATION STAKEHOLDERS.
                        ON PROPOSED REGULATIONS

                              ----------                              


                        THURSDAY, JULY 14, 2016

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Murray, Burr, Paul, Casey, 
Bennet, Whitehouse, and Murphy.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Senator Murray and I will each have an opening statement. 
Then we will introduce our witnesses. Senator Paul is here to 
introduce the witness from Kentucky at that time, and then 
after our witness testimony the Senators will have 5 minutes of 
questions.
    Senator Murray and I both have to leave at 10:15 for a 
while. I have to leave for a while to go to a short event in 
the House, but we'll continue the hearing. We'll be in the 
question time by then. You will have already given your 
testimony and we will have had a chance to ask you questions. 
So we'll go right ahead until about 11:30 or 11:45, depending 
on the number of Senators who come to ask questions.
    This is our fifth oversight hearing on the law to fix No 
Child Left Behind. There's not a lot of need to elaborate on 
what we established in the first four hearings. The President 
of the National Education Association said that a dark cloud 
was lifted in December, and there was a broad consensus that 
that was true among people who work with children in schools. 
The President called the new law a Christmas Miracle that had 
broad support from Governors to teachers' unions to school 
superintendents to chief state school officers, and my hope is 
that by restoring responsibility to the States and classroom 
teachers, it inaugurates a new era of innovation and excellence 
in student achievement. Gone are the Federal Common Core 
mandates, the ``Mother, May I?'' conditional waivers, the 
highly qualified teacher definitions from Washington, the 
Washington mandates on teacher evaluation. Gone are the Federal 
school turnaround models, Federal test-based accountability, 
and Federal definitions of adequate yearly progress.
    The new law placed some guardrails around State 
accountability systems, but it also placed some guardrails on 
the Secretary, who is specifically prohibited from telling 
States how to set academic standards, how to evaluate State 
tests, how to identify and fix low-performing schools, how to 
create teacher evaluation systems, and how to set goals for 
student achievement and graduation rates.
    In May, the Education Department issued its first proposed 
regulation on accountability systems, and I will focus today on 
four areas that seem to me to be the most in need of overhaul; 
that is, the regulation needs overhaul, and I'll just mention 
them briefly.
    One is the timeline for the new regulations. Senator Murray 
and I both mentioned this in our last hearing with Secretary 
King. The law requires States to establish a State-determined 
methodology to identify schools beginning with the school year 
2017-18, but the proposed regulation, requires States to start 
identifying new schools for support and improvement by the 
beginning of the 2017-18 school year. That timeline would 
discourage States from doing exactly what we hoped they would 
do, which is develop and implement new accountability systems. 
States such as Hawaii and Tennessee have begun working with 
State and local coalitions on innovative approaches to 
accountability, expecting they will have until March or May 
2017 to submit them to the Department. Under the regulations, 
the State would have to start earlier. Dr. Pruitt from Kentucky 
will be testifying about that. I look forward to his comments 
in his testimony.
    I asked Dr. King last week whether the proposed regulation 
would allow a State to develop its new accountability system in 
2017-18 and then begin to identify new schools the next year, 
2018-19. He said under the current regulations it would not be 
allowed, but he's open to comment on that. So my interpretation 
is that the Secretary would be willing to let States wait to 
identify new schools until the beginning of 2018-19 so long as 
States are providing additional support to schools that have 
already been identified under No Child Left Behind waivers.
    That might sound a little complicated, but it's pretty 
important to the States, and we are hearing a great deal about 
it all across the board. The law's intention, in my view, is to 
give States an opportunity to demonstrate innovation and 
accountability systems, which is now their responsibility.
    The second one--and Dr. Darling-Hammond mentions this in 
her testimony--has to do with so-called summative ratings. The 
law says it's up to the States to figure out how to annually 
measure and differentiate public schools based upon a series of 
indicators beyond just the federally required math and reading 
tests. But the proposed rule invents out of whole cloth a 
requirement that these accountability systems result in each 
school receiving a single summative score such as an A to F 
grading system for all schools. That's not in the law. The law 
even prohibits the Secretary from providing specific 
methodology used by States to differentiate or identify 
schools.
    The regulation was seen to put the government in Washington 
back in the business of deciding which schools in Kentucky, 
Tennessee, Washington, Hawaii are succeeding or failing. I look 
forward to Dr. Darling-Hammond's comments on that.
    Third, State academic standards. Under No Child Left 
Behind, in effect, the Department mandated that States adopt 
Common Core, and 38 out of the 42 States did that in order to 
get the waivers. The law repeals that effective mandate with at 
least five specific prohibitions. It no longer requires a State 
to demonstrate, using that word, that they have adopted 
challenging standards. They simply have to assure the Secretary 
that they adopted those standards. Dr. Pletnick in her 
testimony questions whether the proposed rule requirement that 
the State must provide evidence at such time and in a manner 
specified by the Secretary would equate to the ability of the 
Federal Government to reject the State-developed standards. We 
look forward to that testimony.
    Finally, high-stakes Federal tests. The heart of the new 
law is the end of Federal test-based accountability. We kept 
the 17 tests, but we moved to States and classrooms what to do 
about the tests. The proposed regulation seems to restore those 
high-stakes mandates. Federally mandated tests would again, and 
academic indicators would again become the primary means used 
to determine whether a school is succeeding or not, because 
once a school is identified as in need of improvement, it's 
going to always be in need of improvement unless it shows 
significant progress on a federally mandated system.
    Those are some of the issues that I'm concerned about, that 
the witnesses have mentioned in their testimony. We look 
forward to hearing from you.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Alexander.
    We have a diverse group of witnesses here today to share 
their expertise and experience. Thank you all very much for 
joining us.
    I'm glad that we have another opportunity to continue our 
discussion on implementing this important new law, the Every 
Student Succeeds Act, effectively and faithfully to make sure 
all our students have access to high-quality education.
    For those keeping count, this is our fifth implementation 
hearing and another great opportunity to ensure the law is on 
track.
    As I mentioned to Secretary King at our most recent 
hearing, I'm encouraged to see the Department making progress 
to provide much-needed clarity for States and school districts 
as they work to use the flexibility provided under ESSA in 
redesigning their accountability systems. This clarity is 
helping States and school districts engage and collaborate 
directly with parents and teachers and school administrators 
and civil rights organizations across the country.
    As I've mentioned before in these hearings, we were 
deliberate in granting the Department the authority to actually 
implement the law and to do so in a way that accomplishes the 
clear goals we laid out. To me, one of the most important of 
those goals is to maintain the strong Federal guardrails to 
make sure the law truly is working for all students, because we 
know what happens when we don't have true accountability and 
when our education law is not working well. Inevitably, it's 
the kids from our low-income neighborhoods and the kids of 
color, kids with disabilities, kids learning English who fall 
through the cracks, and that wouldn't just be against the 
spirit of the law that was just passed, it would be against the 
letter of it as well. And honestly, it would be an unacceptable 
outcome.
    I am reviewing the regulations being released by the 
Department, taking a close look at the proposed parameters for 
accountability systems and State plan requirements and 
reporting requirements that are included in their draft; and, 
when necessary, I will continue raising concerns and be pushing 
for more clarity to make sure we maintain the focus on 
preparing all students for success in college and career.
    As we told the Secretary at our last hearing, I'm concerned 
about a few provisions in the draft regulations; for example, a 
provision that allows States to compare the performance of 
individual subgroups to the average performance of all students 
in the State. ESSA was clear: the performance of every single 
student in every single subgroup of students matters.
    We also need to make sure Federal investments in education 
support State and local resources and do not simply replace 
them. The regulation known as Supplement, Not Supplant, is an 
important fiscal accountability measure. This is an issue that 
I have raised at past hearings and I'm sure will be discussed 
today and one I will continue to push Secretary King to get 
right in the final rule.
    Last, the deadline for public comments on accountability 
and State plans and reporting regulations is quickly 
approaching, August 1st. I hope all stakeholders, including 
those that are represented here today, will provide the 
Department with their feedback on those regulations.
    It's up to all of us to work together on this and uphold 
the legacy and promise of our Nation's primary education law so 
every student has the opportunity to learn regardless of where 
they live or how they learn or how much money their parents 
make.
    With that, I want to keep my remarks short so we can make 
room for our testimony today, and I look forward to hearing 
from all of you.
    The Chairman. Thank you, Senator Murray.
    Senator Paul, would you like to introduce our first 
witness? And then I will introduce the others.

                       Statement of Senator Paul

    Senator Paul. Yes. Thank you, Senator Alexander. I'm glad 
to welcome Dr. Stephen Pruitt, our Kentucky Commissioner of 
Education. He was elected unanimously, which is somewhat of an 
anomaly to those of us in office, but he was elected 
unanimously to be Commissioner last September. He has hit the 
road with a lot of interest in finding out about what's going 
on around Kentucky. He's had 11 town halls and met with over 
3,000 students, parents, and people interested in education.
    One of the things I'm interested to hear from his testimony 
is that our intention was to allow more freedom with the new 
rules and with the new formulation of ESSA. I'm interested to 
hear from Dr. Pruitt on whether or not the new law is allowing 
Kentucky more freedom compared to the old system of having the 
wavier that we had previously in Kentucky.
    Welcome, Dr. Stephen Pruitt, and thanks for coming.
    The Chairman. Thank you, Senator Paul.
    Our second witness is Dr. Linda Darling-Hammond. She is 
currently President and CEO of the Learning Policy Institute, 
also Professor of Education Emeritus at Stanford.
    Third is Dr. Gail Pletnick, Superintendent of the Dysart 
Unified School District in Surprise, Arizona. She is President-
Elect of the School Superintendents Association.
    Senator Burr may be here, but in the meantime I'll 
introduce the witness from North Carolina, Ms. Alison Harris 
Welcher, Director of School Leadership for Project L.I.F.T. Her 
organization works with school leaders to better use resources 
to improve student outcomes.
    Starting with Dr. Pruitt, would each of you take about 5 
minutes and summarize your testimony, and then we'll go to 
questions.
    Dr. Pruitt.

    STATEMENT OF STEPHEN L. PRUITT, Ph.D., COMMISSIONER OF 
   EDUCATION, KENTUCKY DEPARTMENT OF EDUCATION, FRANKFORT, KY

    Mr. Pruitt. Good morning. Thank you. Chairman Alexander, 
Senator Murray, Senator Paul, and members of the committee, 
first I'd like to thank you for the opportunity to come and 
speak with you this morning on what I believe is one of the 
great opportunities that I will ever see in my career. As the 
chief state school officer for the Commonwealth of Kentucky, 
I'm excited about the future of education in our State under 
this new law, the opportunity to build on the significant 
progress that Kentucky has made to date.
    We have already started to work to engage a broad spectrum 
of education stakeholders. This spring I held 11 regional 
meetings, as Senator Paul has mentioned, met with over 3,000 
Kentuckians in an attempt to find out really what our 
Kentuckians value in their education system. This is not 
something that's unique just to Kentucky. This has actually 
been going on in States across the country. This past week we 
heard from States like Oregon and New Hampshire, who are also 
engaging in the same type of activities.
    Kentuckians told us what they value in their schools and 
how they want to define school success. We listened, and we're 
using those comments to shape our work as we move forward. I've 
assembled 166 diverse individuals and assigned them to work 
groups to examine all of these issues based on the goals, and 
make recommendations based on this new accountability system 
that will be a catalyst for improvement for every child in 
Kentucky.
    The autonomy promise by ESSA is a welcome departure from No 
Child Left Behind, and I appreciate the continued focus on 
closing achievement gaps. Like many of you, I believe this is 
an issue of civil rights. In Kentucky, we're working to move 
all children to higher levels of learning while also 
determining the root cause of achievement gaps which we believe 
stem from opportunity and expectation gaps, access to rigorous, 
high-quality learning opportunities. By making changes to 
address these issues, our goal is not only just to close the 
gaps but our hope is that we will eventually completely 
eliminate those gaps.
    I'd like to commend the U.S. Department of Education for 
its quick response in drafting the regulations and releasing 
them in a timely manner. However, in my opinion, the proposed 
regulations go beyond what the statute intended.
    To be clear, I'm not against accountability. I actually 
think that it is a critical piece to helping our Nation move 
forward. I'm also not against guardrails. I believe that 
someone needs to watch the watchers. However, instead of 
guardrails on a multi-lane highway, I believe the proposed 
regulations are more like concrete barriers along a one-lane 
rural road. With so many restrictions and requirements, the 
State voices are severely limited. The proposed regulations 
stifle creativity, innovation, and the sovereignty of States to 
govern their own education policies. Additionally, the volume 
and complexity of the regulations are in direct opposition to 
Kentuckians' desire for a simple system that provides a broad 
view of school performance.
    For many, a new accountability system is a monumental task. 
Despite our best efforts, I am concerned about the timeline and 
States' ability to implement a new quality system that takes 
full advantage of ESSA. I was heartened to hear the Secretary 
say recently that perhaps the USDOE timeline was a little 
optimistic. I would wholeheartedly agree. For example, instead 
of using the data from our current accountability systems to 
identify schools for comprehensive support and improvement 
under the new system, as the proposed regulations suggest, we 
feel it would be prudent to wait until the end of the 2017-18 
school year to identify schools based on the measures in the 
new system. This will be fairer for our schools, allow for a 
clean transition to a new system, and eliminate an amalgam of 
the two systems during the transition year.
    In the meantime, as provided in Section 5 of the law, we 
will continue to support our currently identified low-
performing schools. I would implore the Secretary to commit to 
this timeline now and not wait until the regulations are 
finalized.
    On another point, while the proposed regulations claim to 
replace NCLB's narrow definition of school success, the 
requirement of a single summative score goes well beyond the 
statute. The proposed regulations limit States' ability to take 
a dashboard approach which is broader, fairer, and a more 
accurate representation of school performance.
    In Kentucky, we found that a summative score leads to 
ranking and creates an unhealthy sense of competition rather 
than the collaboration and collegiality that supports true 
school improvement. We also found that in some instances it 
becomes more about adults chasing points and trying to game the 
system and to manage the appearance of performance rather than 
the actual performance.
    Now more than ever, what a State needs to implement ESSA is 
an honest two-way communication, consistency and trust to make 
good decisions. We need a commonsense approach that supports a 
quality system of assessments, accountability, and school 
improvement measures that can be implemented with fidelity and 
will promote doing what is right for all students. However, a 
compliance mentality prevails.
    There has been a lot said about the peer review process, 
and I would just issue as a caution that this can't be the 
answer to everything, because within that comes the potential 
for possible inconsistencies, impossible misinterpretations or 
different interpretations of the law.
    Kentucky is committed to fully realizing the congressional 
intent of ESSA. If this law truly represents a new day for 
education in America, States would have the support to take 
action based on the quality and what is best for their students 
and move away from a compliance mentality.
    I didn't wake up 6 months ago thinking I'm going to write a 
letter that is going to get some notice that's going to put me 
in front of a Senate committee. I do wake up every morning 
thinking today is a good day to make a difference for children, 
and I have 650,000 students that are relying on me back home to 
deliver to them a system that will be fair, equitable, and will 
promote achievement.
    The Commonwealth of Kentucky looks forward to revised 
regulations that empower States with the freedom to plan, 
innovate, design, and implement quality education systems that 
will ensure opportunity for all students and for Kentucky to be 
able to promote the pillars of equity, achievement, and 
integrity in education policy.
    I thank you so much for this opportunity to speak with you 
this morning.
    [The prepared statement of Mr. Pruitt follows:]

             Prepared Statement of Stephen L. Pruitt, Ph.D.

    Chairman Alexander, Senator Murray, and members of the committee, 
thank you for inviting me to testify about the implementation of the 
Every Student Succeeds Act (ESSA).
    I appreciate the support of the Senate in the passage of this law. 
It is important for Kentucky and other States to have a stable Federal 
law that enables State and local decisionmaking so that we can 
effectively support our schools and districts in their efforts to 
educate all children.
    In Kentucky, our Constitution mandates an efficient system of 
common schools throughout the State and ESSA supports that idea with a 
focus on the success of every student.
    I believe we have both an ethical and moral responsibility to our 
children to provide them with a world-class education regardless of the 
color of their skin, their heritage, the language they speak, their 
family income, where they live, or whether they have a disability. We 
educate children--ALL CHILDREN --because it is the right thing to do 
for them, for our State and for these United States.
    As the Chief State School Officer for the Commonwealth of Kentucky, 
I am excited about the future of education in our State under ESSA and 
the opportunity to build on the progress we have made to date.
    Kentucky has a long history of taking action in the best interest 
of our children. We don't believe in doing what is easy. We believe in 
doing what is right for our students. We understand that also was the 
intent of Congress in passing the ESSA.
    In Kentucky:

    <bullet> We value equity so that all of our students will have the 
opportunity to graduate from high school with the education and skills 
they need to go to college or start a career of their choice.
    <bullet> We value high achievement in academics as well as a well-
rounded education for every student.
    <bullet> We believe in integrity--being open, honest and 
transparent with our students and the adults who support them. Sugar-
coating data so everyone feels good about themselves is a disservice to 
our children, our parents and our educators.
    <bullet> And finally, we value quality in the programs and systems 
that support excellence in teaching and learning, support continuous 
improvement and support our schools and districts in meeting our goal 
of every student graduating high school truly prepared to take the next 
step in life, whether that be college, a career or service in the 
military.

    These values have served us well.
    Not so many years ago, Kentucky ranked near the bottom of States on 
education indicators.
    Today, by many measures, Kentucky has become a national leader in 
improving student achievement. We have climbed to 27th place overall 
according to the latest Quality Counts report from ``Education Week.''

    <bullet> Kentucky students outperform their peers at most levels in 
reading, mathematics and science on NAEP--the National Assessment of 
Educational Progress.
    <bullet> While a wide achievement gap between low-income students 
and their wealthier counterparts exists in every State in the Nation, 
according to the Quality Counts report, with 60 percent of Kentucky's 
students being considered low income, the poverty gap is lower in 
Kentucky than in the majority of other States.
    <bullet> Our graduation rate is among the top in the country. In 
fact, the 2015 Building a Grad Nation report released annually by the 
Alliance for Excellent Education, America's Promise Alliance, Civic 
Enterprises and the Everyone Graduates Center at Johns Hopkins 
University called Kentucky ``a beacon to all other States.''
    <bullet> According to the report, our graduation rate for low-
income students is nearly identical to the graduation rate for middle/
high-income students and well above the national rate for all students.
    <bullet> And, we have seen significant increases over the past 5 
years in our readiness rates for postsecondary education and the 
workforce.

    Despite this progress, we readily acknowledge that we still have 
achievement gaps--all States do. That is why I am excited about the 
opportunity ESSA presents. I, like many of you, believe ESSA is both a 
civil rights law and an education law.
    In Kentucky, we are working to determine the root cause of 
achievement gaps, which we believe stem from opportunity gaps and 
access to rigorous, high quality learning opportunities. Kentucky's 
plan for closing gaps is to move all children up, but to do so faster 
for those at the lowest performance levels. We do not want to sacrifice 
the performance of any child for the sake of another. We believe all 
boats should rise and ALL children should perform at the highest 
levels. We will make changes to not only close the gaps, but eliminate 
them whenever possible.
    In Kentucky, we seized the opportunity that ESSA presents. Before 
the U.S. Department of Education (USED) even released the proposed 
regulations, Kentucky started working to engage a broad spectrum of 
education shareholders, through a series of 11 face-to-face Town Hall 
meetings held across the State and one conducted virtually. More than 
3,000 people participated. They told us what they value in their 
schools and how they define school success. We listened and are using 
those comments to shape the work ahead.
    Also, we have been intentional in making sure we have 
representation from all shareholder groups at the table--on our 
steering committee and work groups--as we build a new accountability 
system under ESSA that will promote quality programs, school 
improvement, educational access and create more opportunities for low-
income and minority students. I have assembled 166 diverse individuals 
and assigned them to work groups to examine the issues based on our 
goals and make recommendations on a new accountability system that will 
be a catalyst for improvement and every child succeeding.
    We plan to go back out to the public for feedback on the new 
system, as well as to gather advice on the development of District and 
School Report Cards.
    I assure you that Kentucky is invested in its young people and is 
up to the challenge and opportunity that comes with the reauthorization 
of the Elementary and Secondary Education Act.
             positive aspects of essa proposed regulations
    I commend the United States Department of Education (USED) for its 
quick response in drafting regulations on the implementation of ESSA 
and releasing them in a timely manner for public comment.
    I am heartened by a number of items in the proposed regulations on 
accountability and State plans published in the Federal Register on May 
31.
    In regard to supporting all students and providing a well-rounded 
and supportive education and equitable access to such for students 
(Section 299.19 (a)--p. 34620), I am excited that career and technical 
education finally gets its due. Education and the economy are 
inextricably linked. For many of our students, career and technical 
education is a pathway to their future, and it is time we recognized it 
as such through challenging standards and rigorous coursework. The 
business community also is very enthusiastic about this as it will 
result in a better prepared workforce.
    The folks who spoke during our town hall meetings or who submitted 
written comments will be very happy that the regulations recognize the 
importance of subjects beyond math, reading and science. They 
consistently told us how much they valued student participation in the 
visual and performing arts, along with the benefits of health and 
physical education. For many students, these are the areas that keep 
them engaged in school and persisting to graduation.
    I wholeheartedly agree with Secretary King's prior statement on the 
proposed regulations that they ``give educators room to reclaim for all 
of their students the joy and promise of a well-rounded educational 
experience.''
    I appreciate Senator Murray's assessment that the proposed 
regulations fulfill the Federal obligation to protect and promote 
equity, ensuring that ESSA implementation will uphold the civil rights 
legacy of the Elementary and Secondary Education Act, as it was 
originally approved.
    I further welcome the statutory provision and the congruent 
regulatory guidance on Subgroups of Students (Section 200.16(b)(i)--p. 
34600) that maintains the inclusion of English Language Learners in 
accountability up to 4 years to provide a more accurate picture of how 
schools are continuing to support these students.
    Additionally, allowing students with alternate diplomas (Section 
200.34(a)(1)(ii), p. 34612) to be counted in the graduation rate is a 
much needed change. Formerly, only students graduating with a 
``regular'' diploma counted in the graduation rate, which discounted 
the hard work of students participating in an alternate assessment who 
achieved the alternate diploma. We are happy to see that change 
reflected in the statute and the proposed regulation.
                concerns over essa proposed regulations
    But, a law is only as good as its regulations and their 
implementation. No education initiative ever died in the visioning 
phase; it lives or dies dependent on its implementation.
    As we saw under No Child Left Behind (NCLB), States do not achieve 
quality teaching and learning or improved student outcomes simply by 
checking a box that they complied with a law. There also must be 
fidelity in the implementation of the law, which is especially 
important with the autonomy that the ESSA provides States and local 
school districts.
    However, in my opinion, the proposed regulations go beyond what 
statute intended. Instead of guardrails along a multi-lane highway, the 
proposed regulations are more like concrete barriers along a one lane 
road with so many restrictions and requirements, that State choices are 
severely limited. The proposed regulations stifle creativity, 
innovation and the sovereignty of States to govern their own education 
policies.
    Additionally, the volume and complexity of these regulations are in 
direct opposition to Kentuckians' desire for a system that is simple 
and yields clear, concise messages to the public and parents and 
provides a broad view of school performance.
    I question, based on the proposed regulations, do States truly have 
the autonomy to develop an accountability system and State plans that 
reflect their goals and values and are in the best interest of children 
as was intended under ESSA? As the saying goes, the devil is in the 
details.
    I am concerned about several issues that have emerged in the 
proposed regulations that could undermine our efforts to continue on a 
path to genuine improvement for all students and clearly communicate 
where on that path a school and district is. Certain of the proposed 
regulations simply do not seem to be consistent with the intent of 
Congress or Kentucky's values.
    As a preface, it is important for the record to reflect that 
Kentucky has no intention of backing off of accountability in any way 
during our transition to the new law. Accountability is important to 
ensure public dollars are spent wisely and that all students have 
equitable opportunities to achieve at high levels.
point 1--identification of schools in need of comprehensive support and 
                              improvement
    Statutory Summary: Section 5(e)(1)(B) indicates that States which 
receive title I funding must develop and implement a single, statewide 
State accountability system beginning with school year 2017-18. Section 
1111(c)(4)(D) of the ESEA, as amended by the ESSA, requires States to 
begin identifying schools in need of comprehensive support and 
improvement in the 2017-18 school year and to do so at least once every 
3 years.
    The proposed regulation would: Require States to use data available 
in 2016-17 that was generated under the current accountability system 
to identify schools for comprehensive and targeted support and 
improvement under the new system beginning in 2017-18. (Section 
200.19(d)(1)_p. 34603)
    KY Reaction: Implementing a new accountability system in 2017-18 is 
already a monumental task on an aggressive timeline, and I have concern 
that States will be able to implement new systems that take full 
advantage of ESSA by the 2017-18 school year. Instead, States will be 
forced into continuing the status quo of their current systems or make 
only minor tweaks to existing systems.
    I was heartened to hear the Secretary say recently that perhaps 
USED's timetable was a little optimistic. We wholeheartedly agree.
    For example, instead of using data from our current accountability 
system to identify schools for comprehensive support and improvement 
under the new system as the proposed regulations suggest, we feel it 
would be prudent to wait until the end of the 2017-18 school year to 
identify schools based on the measures of the new system.
    If States are forced to identify schools prior to the new system 
being approved by USED, schools might not be accurately identified 
under the new system. This means those schools that most need intensive 
help may be prohibited from getting it, while those not really needing 
additional resources could receive them.
    In addition, misidentification can create confusion among 
educators, parents and students and erodes confidence in the 
accountability system. For example, when Kentucky transitioned to its 
current accountability model, one high school was identified as a 
Priority School under the former system. However, under the new system 
it has grown to be high performing and has continued to improve. Since 
there was no ``reset'' based on the measures of the new system, this 
school is simultaneously identified in the bottom 5 percent and the top 
5 percent--sending mixed signals and creating distrust of the current 
accountability system. We do not want to repeat this problem in the 
transition to a new accountability system under ESSA.
    Identifying schools for comprehensive support and improvement using 
data generated under the new accountability system would be fairer for 
our schools, allow a clean transition to the new system and eliminate 
an amalgam of the two systems during the transition year. In the 
meantime, we would continue to support our currently identified low 
performing schools.
    I would implore the Secretary to commit to this timetable now and 
not wait until the regulations are finalized.
    If we are forced to implement an accountability system that does 
not closely align with State policy priorities, it will strike a 
devastating blow against the integrity of this agency and our State as 
a whole. Our schools will suffer and stay mired in compliance rather 
than accepting the shared responsibility for educating the students of 
the Commonwealth. I am a firm believer in accountability, but I will 
not allow the new system in our State to reflect anything other than 
Kentucky's values and what is best for our students.
  point 2--annual differentiation of school performance: performance 
                      levels and summative ratings
    Summary of the Statutory Language: Section 1111(c)(4)(C) requires 
that a State, on an annual basis, meaningfully differentiate its 
schools using all the indicators in the State accountability system.
    The proposed regulation would require that State accountability 
systems provide a single summative rating from multiple measures of 
school performance. (Section 200.18 (4)--p. 3460)
    KY Reaction: While the proposed regulations claim to replace NCLB's 
narrow definition of school success with a more comprehensive picture 
of school performance, the requirement of a single summative score 
seems to go well beyond what the statute calls for and would limit 
States' ability to leave data at a dashboard level, which is a broader, 
fairer and more accurate representation of school performance. While 
composite indices tie up school performance in a neat little package, 
reporting school performance as a single number--like reporting 
different student groups as one group--can mask true performance on the 
various indicators.
    In Kentucky, we found that a summative score leads to ranking and 
creates an unhealthy sense of competition rather than collaboration and 
collegiality among our schools and districts. We also found that, in 
some instances, it takes the focus away from decisions based on what's 
best for students. Instead, it becomes more about adults chasing points 
and trying to ``game'' the system to manage the appearance of 
performance, rather than actual performance. This is not good for 
students and is diametrically opposed to Kentucky's desire to provide a 
transparent system that has integrity and on which people know they can 
count to get accurate information about school performance.
    Furthermore, research \1\ shows that use of a summative score does 
not spur improvement, whereas, quality feedback on multiple indicators 
leads to greater improvement.
---------------------------------------------------------------------------
    \1\ Lipnevich, A.A., and Smith, Jeffrey K. (2008, June). Response 
to assessment feedback: The effects of grades, praise, and source of 
information. Princeton, NJ: ETS.
---------------------------------------------------------------------------
  point 3--annual differentiation of school performance: weighting of 
                               indicators
    Summary of the Statutory Language: Section 1111(c)(4)(B) requires 
State accountability systems to include certain indicators. Most of 
those are academic indicators (e.g., results on reading and math 
assessments, high school graduation rates), but States also are 
required to have one or more additional indicator(s) of school quality 
or student success. Section 1111(c)(4)(C)(ii) specifies that each 
academic indicator has to receive ``substantial'' weight in the State's 
accountability system, and that in the aggregate, ``much greater 
weight'' than the school quality indicators in the aggregate.
    The proposed regulation: Requires States to perform back-end checks 
to demonstrate their weighting systems meet the ``substantial'' and 
``much greater'' standards required in the law, even though the 
regulations do not prescribe the weight or offer a range of weights 
States assign to each indicator, or the aggregate weights for the 
academic and school quality or student success indicators. (Section 
200.18 (6)(d)(1-3)--p. 34602) For example:

    <bullet> A school that gets the lowest score on one of the academic 
indicators must get a different summative rating than a school 
performing at the highest level on every academic indicator.
    <bullet> A school identified for statutorily defined comprehensive 
support (bottom 5 percent, high schools with graduation rates below 67 
percent, and schools with very low performing subgroups) or statutorily 
defined targeted support (consistently underperforming subgroups) 
cannot be removed from those categories based on the performance on 
school quality or student success indicators unless significant forward 
progress is happening on one of the academic indicators. The proposal 
does not, however, define ``significant forward progress,'' thereby 
leaving that determination up to States.

    KY Reaction: The regulation goes beyond the scope of the statute 
and adds additional provisions to what is supposed to be a State 
determination. The back-end checks negate a State's ability to 
determine the impact that ``substantial'' and ``much greater'' weights 
have in the overall accountability system.
      point 4--identification of schools--schools identified for 
                 comprehensive support and improvement
    Summary of the Statutory Language: Each State must create a 
methodology, based on a system of annual meaningful differentiation, 
for identifying certain public schools for comprehensive support and 
improvement and must include three types of schools:

    <bullet> The lowest-performing 5 percent of all title I schools in 
the State;
    <bullet> Any public high school failing to graduate one-third or 
more of its students; and
    <bullet> Title I schools with a consistently underperforming 
subgroup that, on its own, is performing as poorly as all students in 
the lowest-performing 5 percent of title I schools and that has failed 
to improve after implementation of a targeted support and improvement 
plan.
    The proposed regulations would: Reiterate the statutory requirement 
for identifying three specific types of schools for comprehensive or 
targeted support and improvement. They do not extend the authority of 
States to identify schools for improvement beyond what is in statute. 
The regulation should provide States further guidance on how they may 
be able to provide support to schools in need beyond those currently 
recognized. (Section 200.19(a)(1-3)--p. 34602)
    KY Reaction: Currently States are able to identify schools for 
supports if they are title I eligible; however, due to the prescriptive 
nature of the proposed regulations, States are no longer afforded that 
option. Since many, if not all, districts run out of title I money 
before getting to high schools, the result would be there would be 
middle and high schools that would not receive assistance, in spite of 
really needing it.
      point 5--identification of schools--methodology to identify 
                 consistently underperforming subgroups
    Summary of the Statutory Language: Section 1111(c)(4)(C)(iii) 
provides that each State must establish and describe in its State plan 
a methodology to identify schools for targeted support and improvement 
and leaves the determination of consistently underperforming up to the 
State.
    The proposed regulation would: Define consistently underperforming 
as failing to make progress for 2 years. (Section 200.19(c)(1)--p. 
34602)
    KY Reaction: The regulation oversteps the bounds of the statutory 
language which leaves the definition of consistently underperforming up 
to the States.
            point 6--resources to support school improvement
    Summary of the Statutory Language: The statute authorizes the SEA 
to reserve 7 percent of the State's title I allocation to serve schools 
identified for Comprehensive or Targeted Support and Improvement. At 
least 95 percent of these funds must flow through to LEAs, unless the 
SEA and an LEA agree to have improvement activities carried out by the 
State or an outside provider. The statute provides other requirements 
regarding local applications and the targeting of these funds.
    The proposed regulations would: Require that the SEA, in allocating 
funds, provide at least $50,000 for each Targeted Support and 
Improvement school and at least $500,000 for each Comprehensive Support 
and Improvement school, unless the SEA can conclude (based on a 
demonstration by the LEA in its application) that a smaller amount 
would suffice. (Section 200.24 (9)(c)(2)(ii)--p. 34608)
    KY Reaction: With the proposed regulation setting an arbitrary 
minimum allocation of $500,000 for Comprehensive Support and 
Improvement Schools, there is no consideration of student population. 
For small rural schools, this would likely be more than they need, but 
the State would have no discretion in awarding less unless the district 
requested and justified less, which few are likely to do. The result 
would be less money for schools that may have larger student 
populations and need more than the $500,000 to effect comprehensive 
improvement, thus creating a funding inequity.
    Furthermore, the State should not be forced through the onerous 
process of establishing a $500,000 minimum, to have each LEA either 
apply for the $500K or request and justify an exception, and then 
consider each such request on a case-by-case basis--all when the State 
knows from the beginning that $500K will be more than needed in many 
cases.
    By setting the minimum allocations in regulation, States do not 
have the autonomy to make decisions based on actual school needs.
                         point 7--report cards
    Summary of the Statutory Language: The law requires that each LEA 
participating in title I produce and disseminate a report card, 
containing information for the LEA as a whole and for each of its 
schools.
    The proposed regulations would: Require that the local report card 
(for the LEA as a whole and for each school) begin with a clearly 
labeled and prominently displayed overview section, be developed with 
parental input, include certain information and be distributed to 
parents on a single piece of paper. (Section 200.31 (3)(d)(2)(i)--p. 
34610)
    KY Reaction: With the volume and complexity of the reporting 
requirements, a single sheet of paper is not adequate if we are to use 
a font size that we expect parents and others will be able to read.
 point 8--contents of the consolidated plan and the peer review process
    Summary of the Statutory Language: Section 1111 (e)(1) prohibits 
the Secretary from adding new requirements and criteria outside the 
scope of the statute.
    Section 9302 (b)(3) states that

          ``the Secretary shall require only descriptions, information, 
        assurances . . . , and other information that are absolutely 
        necessary for the consideration of the consolidated State plan 
        or consolidated State application.''

    Section 1111(a)(4) provides that the Secretary establish a peer-
review process to assist in the review of State plans. The purpose of 
peer review is to maximize collaboration with each State; promote 
effective implementation of the challenging State academic standards 
through State and local innovation; and to provide transparent, timely 
and objective feedback to States designed to strengthen the technical 
and overall quality of the State plans.
    The proposed regulations would: Require States to undertake 
burdensome, time-consuming documentation not required in statute to 
provide detailed descriptions, reviews and evidences on multiple 
elements within the consolidated State plan--presumably to support the 
peer review process.
    KY Reaction: We applaud the law's intent to provide collaboration 
between State and Federal education agencies through the peer review 
process and provide feedback designed to strengthen State plans. 
However, history has shown that the peer review process, as it 
currently operates, is subjective, secretive and often results in 
inconsistent interpretations of the law.
    The documentation that States must provide under the proposed 
regulations on items such as challenging State academic standards, 
performance management systems, strategies, timelines and funding 
sources goes beyond the intent of the assurances required in statute. 
As such, we have a concern that though prohibited in law, the peer 
review process could be manipulated to allow the department to promote 
its agenda outside of the regulatory process.
    Furthermore, the requirement to provide massive amounts of 
documentation, again presumably to support the peer review process, 
adds many additional staff hours and expense. Recently, the Kentucky 
Department of Education was required to spend more than $500 and 
countless hours assembling boxes and boxes of hard copy documentation 
for the assessment peer review. This does not seem to support the 
collaborative process intended in the law and a trust in States to do 
the right things for their students.
          point 10--supplement, not supplant: section 1118(b)
    Finally, while I understand the proposed regulations on assessments 
and ``supplement, not supplant'' will be forthcoming, based on what we 
have seen so far with the proposed regulations on accountability and 
State plans, I have concerns.
    Kentucky is committed to supporting equitable educational 
opportunities for all students. I am concerned, however, that USED's 
recent regulatory proposal on title I's Supplement, not Supplant (SNS) 
requirement exceeds the scope of the Every Student Succeeds Act (ESSA) 
and will promote harmful consequences for students.
    SNS is a long-standing rule that requires title I funds not be used 
to replace the State and local funds an LEA would have spent in a title 
I school if it did not participate in title I. ESSA retained the SNS 
rule, but changed how compliance is tested. ESSA prohibits USED from 
prescribing the specific methodology an LEA uses to allocate State and 
local funds.
    ESSA also contains a ``rule of construction'' stating nothing in 
title I shall be construed to mandate equalized spending per-pupil for 
a State, LEA, or school. USED's proposed regulation on Supplement, not 
Supplant purports to permit each LEA to determine its own methodology 
for allocating State and local funds to schools, but would require that 
the methodology result in the LEA spending an equal or greater amount 
per-pupil in its title I schools than the average amount it spends per-
pupil in its non-title I schools.
    The Congressional Research Service recently released an analysis 
that found ``a legal argument could be raised that USED will exceed its 
statutory authority if it promulgates the proposed SNS rules in their 
current form.''
    In addition to exceeding the statutory scope of ESSA, the proposal 
that USED presented during negotiated rulemaking may require districts 
to force place teachers in schools to comply, place existing State and 
local initiatives to promote diverse public schools at risk of 
noncompliance, and penalize States and districts that use a weighted 
funding methodology.
    When the Department publishes its forthcoming proposed rule on 
Supplement, not Supplant, I urge Congress to review it closely to 
ensure that it conforms to congressional intent and avoids the 
unintended negative consequences promoted by the Department's earlier 
proposals in this area.
    There are many other smaller technical points in the proposed 
regulations that Kentucky will be addressing in its formal comments 
submitted through the Federal Register website. Individually they may 
seem benign, but collectively they add up to a very inflexible, 
prescriptive and authoritarian approach to school improvement--the very 
thing that doomed NCLB and the very thing ESSA was meant to avoid.
                               conclusion
    Now, more than ever what States need to implement ESSA is a common 
sense approach that supports a quality system of assessments, 
accountability and school improvement measures that can be implemented 
with fidelity and will promote doing what is right for students.
    States need honest two-way communication, consistency and to be 
trusted to make good decisions.
    Let me share with you, however, an issue we recently encountered 
concerning Kentucky's current science assessments. On March 31, 2015, 
as part of the ESEA flexibility waiver renewal process, USED approved 
Kentucky's plan to give only a Norm Referenced Test (NRT) at the 
elementary and middle school levels in science, since the State had 
implemented new science standards and aligned assessments were in 
development, but not yet vetted and available for administration. The 
alternative, a delay in teaching the new, more rigorous science 
standards until a new test was complete, was not a decision Kentucky 
entertained, since it would not be in students' best interest.
    This spring, despite Kentucky's approved ESEA waiver, USED staff 
informed the State that under a new interpretation by USED, the State 
was out of compliance, unless it gave a science test for which student 
performance levels could be assigned. USED staff suggested giving an 
old test, not aligned to the new science standards and for which 
student performance levels would not be an accurate reflection of what 
they were learning.
    This would be a violation of Federal requirements that assessments 
be aligned with the State's challenging academic content and student 
academic achievement standards, and provide coherent information about 
student attainment of such standards. In order to maintain the 
integrity of Kentucky's accountability system and to be honest with our 
students, parents and teachers, I could not in good conscience agree to 
USED demands.
    Although informed that new high-quality science tests aligned with 
the new standards would be field tested in spring 2017 and implemented 
statewide in spring 2018, I received a letter that USED has placed a 
condition on Kentucky's Title I, Part A and IDEA Part B Federal Fiscal 
Year 2016 grant awards--all because we wanted to do what was right for 
students, and not waste money on a meaningless test.
    In one of our many conversations with USED on this issue, I was 
told that if everyone took time off testing when new standards are 
implemented it would be a problem. My response was no, it would be a 
solution, because we would have time to develop high quality tests that 
assess student knowledge at a much deeper level and provide more 
meaningful feedback as a basis for improvement. We wouldn't just be 
giving tests for tests sake.
    Kentucky is committed to fully realizing the congressional intent 
of ESSA. If this law truly represents a new day for education in 
America, States must have the support to take action based on quality 
and what is best for their students and move away from a compliance 
mentality.
    The word accountability ends with ``ability,'' which is what 
Kentucky is seeking in proposed regulations--the ability to put OUR 
students at the center of the decisionmaking process.
    The Commonwealth of Kentucky looks forward to revised regulations 
that empower States with the freedom to plan, innovate, design and 
implement quality education systems that will ensure opportunity for 
all students and, in Kentucky, promote the pillars of equity, 
achievement and integrity in education policy.
    Thank you for your time and consideration.

    The Chairman. Thank you, Dr. Pruitt.
    If the witnesses stay as close as you can to 5 minutes, 
we'll have more time for back and forth with all the Senators.
    Dr. Darling-Hammond.

STATEMENT OF LINDA DARLING-HAMMOND, Ed.D., PRESIDENT AND CEO AT 
  LEARNING POLICY INSTITUTE, CHARLES E. DUCOMMUN PROFESSOR OF 
    EDUCATION EMERITUS AT STANFORD UNIVERSITY, PALO ALTO, CA

    Ms. Darling-Hammond. Thank you so much, Senators Alexander 
and Murray, members of the committee. Thank you for your 
invitation to participate in this hearing.
    As a parent and a teacher and a researcher, I want to 
congratulate the Congress on the many ways in which the Every 
Student Succeeds Act builds on our knowledge of what works in 
education and how schools can be improved. ESSA gives States 
the opportunity to design accountability systems that both 
support equity and continuous improvement across schools, and 
it recognizes that educational improvement today must increase 
students' ability to succeed in the 21st century.
    I also applaud the U.S. Department of Education for 
including a number of provisions in its proposed regulations 
that will help support these goals, in particular the need to 
ensure that the interventions are evidence-based and locally 
determined and that they support the use of school indicators 
for both identification and diagnostic purposes.
    There are some areas where the proposed regulations, 
however, could unintentionally undermine equity advances and 
State efforts to support improvement in all schools for all 
students. In my written testimony I identify five areas.
    The first is allowing dashboards of information that do not 
require a single summative score.
    The second is allowing additional indicators of school 
quality beyond the four federally required ones to be used 
meaningfully in accountability decisions.
    The third is to allow more detailed and informative 
measures of achievement in addition to the percent of students 
proficient on State tests for accountability determinations. We 
learned under NCLB that the attention on what became the bubble 
kids who were right at the cut score took away from attention 
to kids above and below. We need information about how children 
are progressing along the entire continuum.
    The fourth is to allow sufficient time, as we've already 
mentioned, for implementation of these rules.
    And the fifth is to find ways to respond to low 
participation rates that do not confuse actual student 
performance with the number of students taking tests.
    I'm going to focus really just on the single summative 
score issue now, which is causing many States concern. Places 
like California, Kentucky, Vermont and Virginia and others are 
well along a path toward developing new accountability systems 
that focus on more and better information for school 
intervention and improvement that they believe will be 
undermined by this requirement because it will mask important 
information, make it more difficult to target the right 
supports to the right schools in the right ways. Several of 
these States have used a single measure like a grading system 
or an index in the past. They found that it impeded useful 
improvement, causing schools that are above the cut point to 
become complacent because they don't have to worry about 
improvement, and masking information both about subgroup 
performance and about what we need to improve.
    Some people have said that parents can't understand more 
than a single summative score, but as the parent of three 
children I would argue that those report cards that we get 
every semester that tell us how our kids are doing in reading 
and math and social studies and PE and art and whether they're 
getting their homework done are completely interpretable to 
parents and very much valued, and I included a redacted version 
of one of my children's report cards in the testimony on page 5 
to remind us that getting this information is very, very 
valuable. In fact, in my own experience of parenting, I never 
ever asked any of my children's schools for a single summative 
score to describe my child. And because I have two children who 
are dyslexic and performed well overall, we would never have 
identified their reading needs if all I got was a single 
summative score. Schools need to know which kids need help in 
reading, which ones need help in math, just as States need to 
know which schools need help to improve their English language 
proficiency programs and pedagogies and which ones need help to 
improve their graduation rates.
    Many States are exploring and developing decision rules to 
be able to use multiple indicators in a fair and consistent 
way, giving more weight to the academic indicators, but also 
paying attention to things like college and career readiness, 
how many kids are completing good programs of career technical 
and college preparatory education, things like suspension and 
expulsion rates that civil rights groups in a number of States 
like my own have been advocating for in the dashboard, as part 
of a comprehensive approach both to monitoring schools for 
continuous improvement and subgroups of students within those 
schools, targeting interventions to those needs, using decision 
rules to decide which schools with the greatest needs in each 
of those areas and across the areas will get interventions from 
the State.
    I gave examples in my written testimony of how several 
States are approaching this as they are developing their new 
systems working with stakeholders, and I think it's really 
important that we allow in the regulations the flexibility for 
these important indicators to be part of the accountability 
determinations and the continuous improvement systems that are 
used to follow on that.
    At the end of the day, our goal has to be providing as much 
information as possible to identify and solve problems. Thank 
you for the opportunity to discuss how we can make this law as 
beneficial as it has the potential to be.
    [The prepared statement of Ms. Darling-Hammond follows:]

           Prepared Statement of Linda Darling-Hammond, Ed.D.

                            i. introduction
    Chairman Alexander, Ranking Member Murray, and members of the 
committee, thank you for your invitation to participate in this 
hearing.
    My name is Linda Darling-Hammond. I am the Charles E. Ducommun 
Professor of Education Emeritus at Stanford University and serve as the 
President and CEO of the Learning Policy Institute (LPI).
    The Institute conducts and communicates independent, high-quality 
research to improve education policy and practice. Working with 
policymakers, researchers, educators, community groups, and others, we 
seek to advance evidence-based policies that support empowering and 
equitable learning for each and every child.
    I am honored to be here today.
    As a parent, an educator, and a researcher, I want to begin by 
congratulating the Congress on the many ways in which the Every Student 
Succeeds Act (ESSA) builds on our knowledge of what works in education 
and how schools can be improved. To a much greater extent than its 
predecessor, ESSA affords States the opportunity to design 
accountability systems that both support continuous improvement across 
all schools while accurately identifying and assisting schools that are 
struggling to meet the needs of all students. It recognizes that 
educational improvement must increase students' ability to succeed in 
the 21st century, fostering such skills as critical thinking, complex 
problem-solving, effective communication and collaboration, and the 
ability to learn independently in a rapidly changing world.
    The main point of my testimony is that the regulations for the law 
must allow for accountability that leads to this equity and 
improvement, by providing transparency and clarity for action both for 
schools that are failing overall or struggling in certain regards and 
for all schools to continually improve. At the same time, it must allow 
for the innovation that will carry this country and its people into the 
21st century innovations in learning, teaching, and schooling that are 
necessary for our national success.
    Changes are clearly needed in our educational systems. According to 
the most recent Program for International Student Assessment (PISA), a 
test of applied learning and higher order thinking skills released by 
the Organization for Economic Co-operation and Development (OECD), the 
United States ranked, among 34 countries, 27th in mathematics, 17th in 
reading, and 20th in science.\1\ Between 2000 and 2012, when No Child 
Left Behind was in place, U.S. scores and rankings on PISA declined in 
all areas tested. The greatest challenges are in the schools serving 
our lowest-income students. And poor children are a growing share of 
the U.S. population, now comprising more than half all public school 
students.
---------------------------------------------------------------------------
    \1\ Organization for Economic Co-operation and Development, 
``Program for International Student Assessment (PISA) Results from PISA 
2012: United States'' (Washington, DC: Organization for Economic Co-
operation and Development, 2013).
---------------------------------------------------------------------------
    It is clear that we need to do some things differently than we have 
attempted in the past. While we have some wonderfully successful 
schools, our system as a whole is not ensuring that all students can 
graduate from high school well prepared for their futures. To achieve 
this goal, we will need to redesign accountability and improvement 
systems to support these efforts.
    As the U.S. Department of Education (the Department) works toward 
finalizing regulations to support the successful implementation of 
ESSA, these regulations must allow States to develop accountability 
systems that increase equity in educational opportunities and outcomes 
and that drive continuous improvement for all students and schools. 
These systems should offer transparency, without sacrificing the 
specific information needed to determine supports and interventions. 
And the regulations should support innovation, so that States can 
implement changes that will support and measure the kind of 21st 
century teaching and learning that are necessary for our national 
success.
    Congressional intent to support these types of systems is evident 
throughout ESSA. I join many educators who applaud the wise approach 
Congress took to create a law that allows States to move away from the 
restrictions of NCLB that hampered continuous improvement and 
innovation. While well intentioned, NCLB resulted in rigid 
accountability systems that were often counterproductive to increasing 
equitable and meaningful educational opportunities for all students.
    I also applaud the U.S. Department of Education for including in 
its proposed regulations a number of provisions that will help support 
the goal of creating accountability systems that drive improvement for 
all schools and all students. For example, the proposed regulations 
emphasize the need to ensure that interventions are not only based on 
each school's unique situation but they must also be evidence-based and 
locally determined. The proposed regulations also support the use of 
indicators for both identification and diagnostic purposes. The use of 
diagnostic indicators can provide additional data to inform the use of 
funding for professional development, direct student services, and 
school improvement.
    There are some areas, however, where the proposed regulations could 
be counterproductive to State efforts to support continuous improvement 
in all schools for all students. Other regulations could reduce the 
opportunities for States to develop much more effective systems for 
addressing inequalities and improving schools. The following testimony 
highlights these areas and provide recommendations on how the final 
regulations can support States in developing, implementing, and 
improving upon accountability systems that drive continuous improvement 
to ensure that all students develop the skills necessary to succeed in 
the 21st century.
                             ii. key issues
    The final regulations issued by the Department, as well as any 
subsequent Guidance and Technical Assistance should:

    1. Allow States to develop useful dashboards of information that 
provide transparency and guidance for productive action. The 
regulations should not require a single summative score, which could 
limit a State's ability provide the data needed for schools and States 
to act wisely and well on behalf of the students and families, while 
hindering the ability of parents and community members to advocate 
wisely and well on behalf of their children.
    2. Allow States to use additional indicators of school quality, 
beyond the four that are federally required, in meaningful ways that 
recognize and incentivize schools for their progress on these measures. 
The proposed regulations would essentially render the ``5th 
indicator(s)'' meaningless in the process of identifying schools, thus 
undermining efforts to eliminate disparities and increase student 
opportunities to learn. The regulations should not restrict State 
options for weighting and using these additional measures in meaningful 
ways to add to the information that is used to examine school success. 
This should include the meaningful use of extended-year graduation 
rates in State accountability systems, which incentivize schools to 
keep in, rather than pushing out, students who cannot graduate in 4 
years and to re-attract those who have left.
    3. Allow States to use continuous measures of achievement (such as 
scale scores, and movement across performance categories), in order to 
better measure progress and equity gaps. This approach encourages 
schools to pay attention to students at all points along the 
achievement continuum, and provides States with better information 
about progress and outcomes for all students. The regulations should 
not require reporting of student performance by the percentage of 
students who have met a single cut-point which has, under NCLB, focused 
attention disproportionately on assisting students near that cut point 
(the so-called ``bubble kids'') to the detriment of others.
    4. Ensure sufficient time to implement thoughtful and effective 
accountability systems which incorporate stakeholder feedback and have 
the capacity to drive effective strategies for improvement in schools. 
The regulations should give States until the 2017-18 school year to use 
new systems for evaluating school progress and identifying schools for 
intensive assistance.
    Finally, it seems advisable for the Department to reconsider its 
approach on how States respond to low participation rates on statewide 
assessments. The proposed regulations outline very specific 
consequences to be applied when there is a participation rate of less 
than 95 percent for any group in any school. The Department proposes a 
menu of options for States dealing with schools that fall below the 95 
percent participation rate threshold, including:
    <bullet> lower summative performance ratings
    <bullet> lowest performance level on academic achievement indicator
    <bullet> identified for targeted support and improvement
    <bullet> State determined action that is equally rigorous and 
approved by ED \2\
---------------------------------------------------------------------------
    \2\ Page 34548: Section  200.15
---------------------------------------------------------------------------
    These consequences would confuse actual student performance with 
the numbers of students taking tests, and reduce the clarity and 
transparency of ratings, decisions, and actions. A number of officials 
and educators have indicated that these approaches could backfire and 
cause greater challenges for them as they seek to build a culture of 
engagement in new assessments and systems. Encouraging States to 
determine and clearly articulate how they will factor the requirement 
for 95 percent participation in assessments without federally 
prescribed sanctions will likely better help address the previous 
misuse of and current responses to high-stakes testing.
    For the purposes of my oral testimony, I will focus on the first 
item--how the Department, in its final regulations, can support States 
in developing accountability systems that are transparent, while also 
providing the information needed to drive improvement across all 
schools for all students.
    iii.  200.18 meaningful differentiation of school performance: 
           preserving a robust dashboard to guide improvement
    ESSA requires that States identify at least 5 percent of their 
title I schools for comprehensive assistance based on their new 
accountability systems, which will include multiple measures, such as 
literacy and math achievement, English proficiency gains, graduation 
rates, and other indicators. The law does not prescribe a particular 
method for this identification, aside from noting that the 4 academic 
measures specified must have ``much greater weight'' than other 
measures the States add. However, the proposed regulations would 
require States to produce a ``single summative score'' on which to rank 
all of the schools in order to choose the ``bottom 5 percent.''
    Many States--including California, Kentucky, Vermont, and Virginia, 
among others--are well along a path toward developing new 
accountability systems focused on better information for school 
intervention and improvement that they believe will be undermined by 
this requirement, because it will mask important information and make 
it more difficult to target the right supports to the right schools in 
the right ways. Several of these States have used a single measure, 
such as an index or a grading scheme, in the past and have found that 
it impeded useful improvement.
    Their experience was that large amounts of resources and attention 
were directed to the single summative score at the expense of many 
other factors that impact teaching and learning. Schools could rest on 
their laurels if they ranked above an arbitrary cut point, rather than 
paying attention to continuously improving performance on every 
indicator. Important factors and data were forgotten because they were 
buried underneath the score. And important needs for groups of students 
and schools as a whole went unaddressed.
    Parents and educators who work directly with children understand 
this from their personal experience. A single summative score is not 
needed and can get in the way of understanding where and how 
improvement efforts should be focused.
    Years ago, when my three children were young, I eagerly awaited the 
report cards that told me how my children were doing in each of their 
school subjects, such as reading, writing, math, science, social 
studies, art, music, and physical education. The most useful of these 
report cards also provided information on such things as homework and 
study habits and citizenship. This information was clear and easy to 
understand, while also revealing specific areas where I could praise or 
help my child--and where the teacher and school needed to provide 
additional support.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In all of those years of parenting, it never once occurred to me to 
ask any of these schools for a ``single summative score'' to describe 
my child. I didn't need it to understand how my child was doing, and in 
fact it would have gotten in the way. I wanted and needed to know 
exactly where they were doing well and where they were in need of help, 
so that I could support them. The school needed that information as 
well. In fact, in my own personal experience, two of my children are 
dyslexic and while they performed well overall, the need for additional 
support in reading would have been masked if a single rating were the 
measure the school focused on. Ranking all the first graders against 
each other, giving each an overall rating, and then identifying only 
the bottom 5 percent for extra help, would have missed the mark.
    The use of a single summative score would provide neither myself 
nor my child's teacher the information necessary to identify areas of 
improvement and act on them. Similarly, schools and districts need 
reporting systems that allow them to identify individual students and 
groups of students who may need intensive help in reading or math in 
order to design, target, and implement interventions like Reading 
Recovery or math lab. And they need to know which students are 
chronically absent in order to provide organized outreach to the home 
for students who are not getting to school. This requires specific 
indicators that are individually reported, not a single summative 
score. And it requires a set of interventions that are targeted to the 
specific needs that are identified.
    Some States are thinking about the same approach to identification 
and improvement of schools: On each of the indicators they use, they 
could identify schools that are low-performing and not improving (or 
that have large, persistent equity gaps), and provide focused intensive 
assistance to those schools to really help them improve in that area. 
For example, the State could identify and work with a group of schools 
that are not making sufficient progress in supporting English-language 
proficiency gains by organizing research about what works, examples of 
local schools that have strongly improved and can be visited and 
studied, curriculum materials and program models that can be adopted, 
professional development for educators, and coaches who work directly 
in the schools.
    Just as targeted interventions can be organized for students who 
are struggling in a particular area, so such interventions can be 
organized to support networks of schools that share a common need. The 
same thing could be done with schools that are struggling in 
mathematics performance, for example, or graduation rates or high 
suspension rates, overall or for specific groups of students. The State 
might identify the neediest schools in each indicator area for 
intensive intervention. The total number of schools assisted might be 
more than 5 percent, but each could receive help for the specific areas 
of need. Across the set of indicators, some schools will be low 
performing in several and could receive more comprehensive services.
    Research has demonstrated the power of the targeted interventions 
for networks of schools that share similar needs. As we describe in our 
LPI report, written in partnership with the Stanford Center for 
Opportunity Policy in Education, Pathways to New Accountability Through 
the Every Student Succeeds Act,\3\ a number of States are developing 
accountability systems that incorporate this type of approach to school 
identification and continuous improvement. These systems aim to 
identify schools that are low-performing and not improving within each 
of several indicators, and/or have large equity gaps. Once identified, 
these schools can be provided with focused, intensive assistance to 
improve in the area or areas that are identified, such as English 
language proficiency, chronic absenteeism, or math assessment for a 
particular student subgroup.
---------------------------------------------------------------------------
    \3\ Darling-Hammond, L., Bae, S., Cook-Harvey, CM., Lam, L., 
Mercer, C., Podolsky, A., and Stosich, E. (2016). Pathways to new 
accountability through the Every Student Succeeds Act. Learning Policy 
Institute: Washington, DC. Retrieved from: https://
learningpolicyinstitute.org/our-work/publications-resources/pathways-
new-accountability-every-student-succeeds-act/.
---------------------------------------------------------------------------
    Like some other States, California is exploring ways to examine 
both performance and improvement simultaneously on its dashboard of 
indicators and to classify school performance on each indicator. The 
example below--for a college and career readiness index--would be 
replicated with the others, with data on subgroup performance also 
added. Schools falling within the red zone on any indicator would be 
identified for assistance. With the full set of indicators shown in the 
Figure 2B, the State could also identify all schools that are in the 
red zone (low performing and not improving) on at least 3 indicators, 
for example, as part of the group of schools to receive comprehensive 
intervention and assistance.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Vermont is also in the process of determining ways to assess school 
performance and display the data for the purpose of identifying schools 
for targeted and comprehensive interventions. The State is in the 
process of piloting Education Quality Review protocols, or EQRs. EQRs 
comprise a system of inspection and improvement that is locally 
developed and implemented, which evaluates schools by measuring five 
dimensions of school quality:

    <bullet> academic achievement in English language arts, 
mathematics, and science, plus graduation rates,
    <bullet> personalization, including personalized learning plans,
    <bullet> safety and school climate,
    <bullet> high-quality staffing, and
    <bullet> financial efficiencies.

    The Vermont EQRs will include two complementary processes for 
assessing these criteria: an Annual Snapshot Review, a multiple 
measures dashboard of quantitative data conducted by the State; and the 
Integrated Field Review, a system-level qualitative site review similar 
to the inspectorate model used in other countries. The Snapshot Reviews 
are designed to occur annually, whereas the more intensive Integrated 
Field Reviews occur at least every 3 years. Educators at all levels of 
the system, State and local, are invited to conduct the Integrated 
Field Reviews, including but not limited to members of the Vermont 
Agency of Education (AOE), superintendents, curriculum coordinators, 
principals, and teachers. During the Integrated Field Review, the 
review team will ``engage in classroom observations, reviews of student 
work, panel discussions or interviews with parents, students and staff 
and collaborate to generate their assessments of school system 
performance.'' \4\ If data from the EQR suggest that there is evidence 
of substantial inequity and insufficient improvement taking place, the 
Vermont AOE will intervene with support and sanctions designed to 
promote improvement.
---------------------------------------------------------------------------
    \4\ http://education.vermont.gov/documents/edu-oped-education-
quality-reviews.pdf.
---------------------------------------------------------------------------
    In the course of consulting with stakeholders on developing a 
usable report card and school identification system, the State has also 
been evaluating several approaches (see figures 3A--3C) which provide 
different kinds of information. Of note is the fact that, while a 
weighted index would identify a school like Frakes Secondary as the 
bottom 5 percent (figure 3A), it would miss the even lower graduation 
rates at Madson and Solina High Schools, the lower mathematics 
performance at Darwish, and the lower reading performance at Lindsay 
High School which are shown in the dashboard approach (figure 3B).
    This critically important information could be taken into account 
with several kinds of decision rules for identifying the lowest-
performing schools, including one that counts the number of struggling 
areas. (These counts could also be weighted to emphasize the 4 required 
academic indicators without losing valuable information from the 
dashboard.) Including improvement or growth information along with 
information about status (as in figure 3-C) would tell decisionmakers 
even more about what is happening in each school, including which of 
these schools is making progress and which is not.
    None of these valuable kinds of information for deciding where and 
how to intervene would be available with a single summative score.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Figure 3-B
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Kentucky is another example of a State using a multiple measure 
approach which does not plan to rely on a single summative score to 
drive identification and improvement. Kentucky's Multiple Measures 
Dashboard ``was designed to have a more balanced approach to determine 
school success by incorporating achievement, program reviews and 
effective teaching measures.'' \5\ The Dashboard includes three 
components: (1) Next-generation learners, which measures performance on 
areas of achievement, gap, growth, college- and career-readiness, and 
graduation rates; (2) Next generation instructional programs and 
support, which includes program reviews for key instructional areas; 
and (3) Next-generation professionals, which includes data on educator 
qualifications and effectiveness. The State indicators are able to 
identify gaps in subgroup student performance and use the data to 
ensure that all students are developing the skills necessary in the 
21st Century.
---------------------------------------------------------------------------
    \5\ http://education.ky.gov/AA/Acct/Pages/default.aspx.
---------------------------------------------------------------------------
    By contrast, when multiple indicators are aggregated together to 
yield a summative score, student subgroup performance can also be 
hidden from view. For example, in one State with an A-F system, the 
average proficiency rate for African American students in schools that 
received an A rating was only 58 percent.\6\ In another State, 183 high 
schools received the highest rating within the State accountability 
system while having at least one subgroup with a graduation rate below 
70 percent.\7\
---------------------------------------------------------------------------
    \6\ https://edtrust.org/resource/making-sure-all-children-matter-
getting-school-accountability-signals-right/.
    \7\ Alliance for Excellent Education analysis of accountability 
data for Colorado.
---------------------------------------------------------------------------
    Efforts by States that are working to develop new models for 
driving school improvement that privilege equity and innovation could 
be undermined by a requirement that they produce a single summative 
score. Their efforts to provide more nuanced, actionable data that is 
aligned with contemporary learning demands would be traded for 
simplicity that masks school needs and distracts attention from what 
should be done to improve performance.
    ESSA does not require the use of a summative score and not every 
State would prefer to use a weighted index to combine indicators into a 
numerical score and a letter grade or similar rating scheme. There are 
a wide variety of methods that could meet ESSA's accountability 
requirements beyond the use of indices, such as a matrix approach that 
identifies where schools fall in terms of performance and growth with 
respect to each indicator--and includes schools for intervention on 
each of the separate measures--and/or decision rules that result in 
school classifications based on the number of areas in which schools 
fail to meet a standard.
    The Department's regulations should seek to ensure that 
transparency is a major criterion for identifying schools, along with 
clear, rational decision rules based on actionable data. While some 
States may choose to have a system that produces a summative score, the 
Department should leave open the possibility of other systems of school 
identification, based on a robust data dashboard that provides 
information to stakeholders and informs improvement efforts.
                 iv.  200.18--weighting of indicators
    ESSA shifts from an old framework that primarily relied upon 
performance in math and reading to define a school's success or 
failure, to a new approach that measures school quality based on a 
combination, at the very least, of five separate measures. Section 
1111(c)(4)(C)(i) of ESSA empowers States to design their own 
accountability systems to fit within a minimum set of Federal 
parameters: academic achievement in reading and math, the high school 
graduation rate, English proficiency gains for English learners, and 
one or more State selected measures of school quality and student 
success.
    These measure(s) of school quality or student success offer the 
promise of a more comprehensive view for parents, students, educators, 
and stakeholders on how their school is performing on a variety of 
meaningful indicators. Each element of a State's emerging 
accountability system, if well-chosen, can create incentives and 
opportunities to move school practices forward in ways that better 
ensure all students are successful. With a well-designed dashboard of 
measures, educators and community members can track information about 
inputs, processes, and outcomes to inform a diagnosis of what is and 
what is not working in schools, along with the types and level of 
intervention needed.
    States have the flexibility to determine the weights of the 
indicators used within each measure so long as academic achievement in 
English language arts and math, graduation rates, and EL proficiency 
are each considered substantial factors and in total, ``afforded much 
greater weight'' than the school quality/success indicator(s) within 
any State-designed accountability system.
    However, the Department's proposed regulations under Section 200.18 
of the proposed rule would essentially render these additional 
indicators as meaningless in the accountability system. The Department 
describes how the first four indicators must be substantially weighted 
separately and much greater in weight together against the ``fifth 
indicator'' (which could be a set of multiple indicators) when 
identifying the lowest performing 5 percent of schools for 
comprehensive support and improvement. This identification also impacts 
which schools with consistently underperforming subgroups of students, 
specifically those performing as poorly as the lowest performing 5 
percent of schools as one of the criteria, will be identified for 
targeted support and intervention. Specifically, the Department 
proposes that in order to meet the requirements for meaningful 
differentiation:

    <bullet> A school's performance on the fifth indicator may not be 
used to change the identity of schools identified for Comprehensive 
Support and Improvement, unless it is making significant progress for 
the ``all students'' group on at least one of the indicators that is 
given substantial weight;
    <bullet> A school's performance on the fifth indicator may not be 
used to change the identity of schools identified for Targeted Support 
and Improvement, unless each consistently underperforming subgroup in 
that school is making significant progress on at least one of the 
indicators given substantial weight; and
    <bullet> A school performing in the lowest performance level on any 
of the substantially weighted indicators does not receive the same 
summative rating as a school performing in the highest level on all of 
the indicators.

    Based on these rules, it is unclear how any indicator of school 
quality or success could be affirmatively used for its intended purpose 
unless a school shows major improvement on test scores, graduation 
rates, or EL progress. In other words, the school quality/success 
indicator only serves as a downward ratchet for identification 
purposes: A school is unlikely to be recognized for positive 
performance on this indicator, significantly compromising its utility 
or effect on improving practice.
    Yet these indicators can be critically important for leveraging 
equity and greater opportunity for students. For example, many 
community groups and civil rights advocates have fought hard to include 
suspension and expulsion data as a measure of school success, given the 
research which demonstrates both the strong relationship with 
graduation and the disproportionate rates by which students of color 
are often excluded from school due to suspensions and expulsions. 
Evidence shows that removing students from school for disciplinary 
purposes has a negative impact, sharply increasing the likelihood that 
they will drop out of school \8\ and expanding the achievement gap, as 
students of color are typically suspended out of school at higher rates 
than their white peers.\9\
---------------------------------------------------------------------------
    \8\ American Psychological Association. (2008, December). Are zero 
tolerance policies effective in the schools? An evidentiary review and 
recommendations. American Psychologist, 63(9), 852-862. http://
dx.doi.org/10.1037/0003-066X.63.9.852. See also Losen et. al. 2012; 
Lee, T., Cornell, D., Gregory, A., & Fan, X. (2011). High suspension 
schools and dropout rates for black and white students. Education and 
Treatment of Children, 34(2), 167-192; Fabelo, A. (2011). Breaking 
schools' rules a statewide study of how school discipline relates to 
students' success and juvenile justice involvement. New York, NY: 
Justice Center, Council of State Governments and Public Policy Research 
Institute. Retrieved from https://ppri.tamu.edu/breaking-schools-rules/
 
    \9\ Skiba, R.J., Michael, R.S., Nardo, A.C., & Peterson, R.L. 
(2002, December). The color of discipline: Sources of racial and gender 
disproportionality in school punishment. Urban Review, 34(4), 317-341.
---------------------------------------------------------------------------
    Research also indicates that tracking suspension and expulsion data 
by student groups can help highlight racially disparate practices and 
promote positive behavioral interventions in schools that will improve 
student engagement and academic success.\10\
---------------------------------------------------------------------------
    \10\ Skiba, R., Chung, C., Trachok, M., Baker, T., Sheya, A., & 
Hughes, R. Parsing Disciplinary Disproportionality. American 
Educational Research Journal, 51(4), 640-670.
---------------------------------------------------------------------------
    Our experience in California, where the State includes this measure 
among the State priorities regularly tracked, is that changes in school 
policies have sharply reduced the rate of exclusions; school practices 
are beginning to support more productive approaches to behavioral 
interventions and social-emotional learning; and graduation rates have 
been climbing, for this and other reasons. Civil rights groups that are 
part of an Equity Coalition in my home State have advocated for 
consideration of these measures and other indicators of school climate 
as key levers for improving how schools serve all their students.
    Similarly, the final regulations should encourage the meaningful 
use of extended-year graduation rates in State accountability systems, 
thereby incentivizing schools to keep in, rather than pushing out, 
students who cannot graduate in 4 years and to re-attract those who 
have left. The law explicitly allows for reporting of extended year 
graduation rates, along with 4-year graduation rates; however, the 
proposed regulations appear to restrict the ability of States to 
meaningfully count these extended-year rates in accountability 
determinations. Schools should be rewarded for keeping and ultimately 
graduating students who need extra support or time to catch up, such as 
students who may have immigrated to the U.S. as teenagers with little 
previous education, those returning to school after dropping out for 
work or child-rearing, those who have been incarcerated, or those who 
simply need more time to reach high standards. Thus, the regulations 
should allow States to use--and meaningfully count--extended-year 
graduation rates in their accountability reporting and decisionmaking.
    Importantly, many States are working to create indicators of 
college- and career-readiness that can leverage much higher quality 
opportunities that are provided much more equitably to students. There 
is strong research demonstrating that taking college preparatory 
coursework in high school is correlated with several indicators of 
college readiness, from college enrollment \11\ to grades \12\ to 
persistence and completion.\13\ Similar research shows that students 
who are enrolled in career academies enroll in community college at 
higher rates,\14\ are more prepared for college coursework,\15\ and 
experience higher wages and greater employment stability.\16\
---------------------------------------------------------------------------
    \11\ Balfanz, R., & Legters, N. (2006). Closing ``dropout 
factories'': The graduation-rate crisis we know, and what can be done 
about it. Education Week, 25(42), 42-43.
    \12\ Adelman, C. (2006). The toolbox revisited: Paths to degree 
completion from high school through college. Washington, DC: U.S. 
Department of Education.
    \13\ Long, M.C., Conger, D., & Latarola, P. (2012). Effects of high 
school course-taking on secondary and postsecondary success. American 
Educational Research Journal, 49(2), 285-322: Willingham, W.W., & 
Morris, M. (1986). Four years later: A longitudinal study of advanced 
placement students in college (College Board Research Report No. 86-2, 
ETS RR No. 85-46). New York: The College Board.
    \14\ Center for Advanced Research and Technology, (2011). A model 
for success: CART's Linked Learning program increases college 
enrollment. Clovis, CA: Center for Advanced Research and Technology.
    \15\ Dayton, D., Hester, C.H. & Stern, D. (2011). Profile of the 
California Partnership Academies, 2009-2010. Berkley, CA: Career 
Academy Support Network, University of California.
    \16\ Bishop, J.H., & Mane, F. (2004). The impacts of career-
technical education on high school labor market success. Economics of 
Education Review, 23(4), 381-402.
---------------------------------------------------------------------------
    As examples, Hawaii, Connecticut and New Jersey use the total 
percentage of students who enroll in any institution of higher 
education within 16 months of earning a regular high school diploma as 
one way to indicate college- and career-readiness.\17\ Georgia, 
Pennsylvania and Arkansas use evidence of rigorous course offerings, 
including the availability of Advanced Placement, International 
Baccalaureate, or college credit courses as part of their college- and 
career-readiness indicator.\18\ Over 11 States, including Alabama, 
Florida, Kentucky and Illinois also use the percentage of students who 
receive industry certification to measure college- and career-
readiness.\19\
---------------------------------------------------------------------------
    \17\ Alliance for Excellent Education. (2009). Reinventing the 
Federal role in education: Supporting the goal of college and career 
readiness for all students. Washington, DC: Author. Retrieved from 
http://all4ed.org/reports-factsheets/reinventing-the-federal-role-in-
education-supporting-the-goal-of-college-and-career-readiness-for-all-
students/.
    \18\ Ibid.
    \19\ Ibid.; Eleven States include: Alabama, Florida, Georgia, 
Illinois, Indiana, Kentucky, Maryland, New Mexico, Oklahoma, Louisiana, 
and Missouri.
---------------------------------------------------------------------------
    Working hard to get more of these opportunities for a greater share 
of students could transform the futures of millions of young people. 
Diminishing the importance of indicators that are not in the set of 
federally prescribed measures indirectly limits the ability of States 
to meaningfully tackle many of the structural and societal challenges 
they face in locally relevant ways. In addition, the added language in 
the proposed rule essentially removes an aspect of State 
decisionmaking, which arguably oversteps the statutory boundaries 
surrounding State determination in the design of new State 
accountability systems.
    The Department should allow States to make these kinds of 
indicators important and meaningful in their State accountability 
systems. By overly prescribing the weighting requirements and the uses 
of additional indicators, the proposed rule could create a perverse 
incentive for States actually to do less to solve pervasive problems 
that strongly affect student outcomes. Unless the Department adjusts 
the language, this provision as currently written would in effect 
discourage the use of these potentially powerful indicators for States 
and rollback community efforts underway to address the root cause of 
educational inequity.
    The Department's final rules should support States in their efforts 
to implement accountability systems that advance equity by highlighting 
and measuring what matters most for student success and what provides 
the most useful levers for school improvement.
  v.  200.33--calculations for reporting on student achievement and 
                meeting measurements of interim progress
    Another area of concern is the way in which States are asked to 
demonstrate how students are progressing on academic measures. Although 
the law does not require a particular method of tracking students' 
proficiency levels, the proposed rules (see p. 34575) indicate that the 
determination of whether all students and each subgroup of students met 
or did not meet these State measurements of interim progress must be 
``based on the percentage of students meeting or exceeding the State's 
proficient level of achievement'' and would be calculated using the 
method in proposed 200.15(b)(1), in which the denominator includes the 
greater of--

    <bullet> 95 percent of all students and 95 percent of each subgroup 
of students who are enrolled in the schools, LEA, or State, 
respectively; or
    <bullet> the number of all such students participating in these 
assessments

    This rule replicates the ``percent proficient'' standard that was 
used under No Child Left Behind. However, research has found that a 
focus on the percentage of students who reach a particular cut point or 
proficiency standard incentivizes schools to focus only on a selected 
few students hovering around the proficiency cut score rather than 
paying attention to all students at all levels of achievement. Studies 
during the NCLB era characterized this well-documented practices as 
``educational triage,'' which resulted in focusing especially on 
students near proficiency and emphasizing test-specific rather than 
generalizable skills.\20\ Furthermore, research found that the 
improvement gap was largest in the low-achieving schools, where 
focusing on students near the proficiency cut score came at the expense 
of attention to the lowest achieving students.\21\ Measures that rely 
upon moving students across a threshold, for example from ``Basic'' to 
``Proficient'' create the incentive to over-direct attention to 
students on the ``bubble'' at the expense of others.\22\
---------------------------------------------------------------------------
    \20\ Jennings, J., & Sohn, H. (2014). Measure for measure: How 
proficiency-based accountability systems affect inequality in academic 
achievement. Sociology of Education, 87(2), 125-141.
    \21\ Lauen, D., & Gaddis, S. (2015). Accountability pressure, 
academic standards, and educational triage. Educational Evaluation and 
Policy Analysis; Sparks, S. (2012). Study finds ``bubble student' 
triage a gut reaction to rising standards.'' Education Week. Retrieved 
from: http://blogs.edweek.org/edweek/indside-school-research/2012/03/
study_finds_bubble_student_tri.
html.
    \22\ Jennings, J., & Sohn, H. (2014). Measure for measure: How 
proficiency-based accountability systems affect inequality in academic 
achievement. Sociology of Education, 87(2), 125-141.
---------------------------------------------------------------------------
    The use of the ``percent proficient'' measure also fails to make 
distinctions among students or schools who are farther away from or 
closer to the cut points, and those who have made significant progress 
or have largely stagnated in their progress. It is an uninformative 
measure for most purposes--and particularly useless for tracking gains 
and changes equity gaps in meaningful ways that can describe how 
students are actually doing and that can inform improvement efforts.
    There are other, much more informative ways to report performance 
and growth, including progress along the entire scale used to reflect 
scores. For example, such reporting can reveal that students moved, on 
average, from a score of 234 to 250, while English learners moved from 
208 to 240, a rate of improvement twice as great. All of these changes 
could occur without affecting the ``percent proficient'' measure at 
all, or in ways that do not show the actual gains made.
    Many States are moving to use this kind of information in their 
systems in line with evidence which suggests that all test-based key 
indicators, including English Learners' progress toward English 
proficiency, should report progress using scale scores to demonstrate 
student growth and cohort improvement.
    For example, Vermont has been collaborating with stakeholders to 
generate greater understanding around the importance of operating on a 
continuum of improvement that values growth rather than simply looking 
only at ``above or below'' cut scores. State officials note that a 
school that is 1 percent below an arbitrary target is not substantially 
different from a school that is 1 percent above the same target. 
However, a school that falls 1 percent below the target is likely 
substantially different than one that falls 30 percent below the 
target--yet both would be treated in the same say under a ``percent 
proficient'' reporting system. As opposed to cut scores, using scale 
scores can help reveal actual performance and showcase how far students 
progressed toward proficiency and gauge how much learning is taking 
place.
    Although less severe, the Department's proposal in Section 200.18 
that would require each State to have a minimum of three performance 
levels for each indicator could similarly distort the understanding of 
achievement and exacerbate continued misunderstandings about school 
quality. The category approach would provide much less information than 
scale scores, while insisting on status labeling rather than growth 
measures as the best way to understand school performance.
    In the last decade, we have learned that status measures at 
particular cut points are not the most productive way to measure school 
contributions to student learning. Many States are moving to include a 
focus on both student-level achievement and growth over static measures 
for the well-understood reason that all students arrive at school with 
varying levels of preparedness--and schools should be recognized for 
having increased student learning. The construct as currently proposed 
does not actually describe change or measure the amount of academic 
progress each student makes over time. Instead, reverting to the old 
NCLB measures, the Department should make clear that States are allowed 
to report achievement in more productive ways by encouraging methods 
that provide increased accuracy and usefulness with information that 
shows status, progress, and improvement across the full range of 
proficiency levels.
               vi.  200.19--timetable for identification
    As you are well aware, many States officials have expressed concern 
over the feasibility of implementing new systems that maximize the 
potential of ESSA by the 2017-18 school year. Without the benefit of 
more deliberation and thoughtful planning, the currently proposed 
timeline precludes that opportunity. While calling for urgency for the 
sake of improving struggling schools is laudable, the unintended 
consequence may be that States end up resorting to only making minor 
tweaks to an existing system or worse, locking educators into old 
measures that maintain the status quo. A rushed timeline also 
undermines the public engagement process that is needed to ensure 
strong stakeholder input.
    Using 2016-17 school year data to identify schools for intervention 
and support means relying on old information to inform a brand new 
system and restricting the entire accountability system to measures 
already in use, rather than taking advantage of the new opportunities 
for better information under ESSA.
    States need time to revise their new accountability systems; this 
includes adding new indicators of English language proficiency and 
school quality or student success. Working in close collaboration with 
teachers, parents, civil rights groups, community-based organizations 
and other stakeholders, States also need to agree on how to combine 
indicators and establish criteria and procedures for school 
identification, all of which requires substantial time and effort. In 
addition, many States will need legislative or administrative approval 
in order to collect the data needed for school identification, 
including data for the indicators that might not yet exist. In essence, 
the Department's proposed timeline is unworkable.
    As the Department take steps to make these regulations more 
workable for States, extending the timetable will allow for real 
stakeholder engagement and enhance the ability of States to implement 
high-quality accountability systems in 2017-18 while also using these 
systems to identify underperforming schools.
    Thank you for the opportunity to provide my views on the Department 
of Education's proposed regulations on accountability and State plans. 
I would be happy to answer any questions that members of the committee 
may have.

    The Chairman. Thank you, Dr. Darling-Hammond.
    Dr. Pletnick.

   STATEMENT OF GAIL PLETNICK, Ed.D., SUPERINTENDENT, DYSART 
             UNIFIED SCHOOL DISTRICT, SURPRISE, AZ

    Ms. Pletnick. Chairman Alexander, Ranking Member Murray, 
and members of the committee, thank you for the opportunity to 
address you today. As was shared, I am a superintendent, and as 
a member of the School Superintendents Association, I have an 
opportunity to work with and collaborate with superintendents 
from across the Nation. I'm here today because I believe the 
underserved populations in our schools deserve the educational 
promise that Every Student Succeeds Act, ESSA, was designed to 
deliver.
    The power of ESSA is the flexibility it provides to States 
and schools, allowing them to focus on each student. The ESSA 
environment promises to be in stark contrast to the 
prescriptive and restrictive one-size-fits-all landscape of No 
Child Left Behind. I understand the value of carefully crafted 
regulations in supporting ESSA implementation, but it is 
critical that those regulations reflect the carefully 
constructed language that speaks to the intent of this law, 
State and local flexibility and leadership.
    For example, ESSA statute requires evaluation of local 
educational agencies on academic and non-academic factors, but 
it stops short of requiring the rating to be a single indicator 
and, as has already been mentioned, that is a concern. The 
proposed regulation summative score approach may hinder a 
State's effort to design a fair and transparent accountability 
system. We have the ability to utilize current research, to 
utilize technology, and hopefully now the flexibility of ESSA 
to build much stronger accountability and reporting systems 
with meaningful multiple indicators. Let the States do what 
they were tasked to do, take responsibility for building 
transparent and fair accountability systems. We should not 
handicap that work by dictating a single score accountability 
system.
    Compounding my first concern is another concern that's 
already been mentioned, and that is the timeline for labeling 
schools under the new ESSA law. In 2017-18, States would be 
required to identify failing schools. The proposed timeline 
will rush the implementation of accountability system decisions 
and may result in some schools in that first year of ESSA label 
implementation being identified as failing based on 2016-17 
data, which is probably more aligned to NCLB mandates. How does 
that support driving meaningful change in the highest-needs 
schools?
    There were questions posed with the release of the 
regulations related to areas such as 95 percent participation 
rate, N size and others. I would just caution the Department of 
Education from going any further in regulating these areas. 
ESSA maintains the requirement that 95 percent of students be 
tested. The concerns that create the problems with meeting 
those mandates are related to local issues and conditions, and 
they have to be solved at the State and community level. 
Consequently, it follows that States should determine the 
actions to be taken and the consequences.
    ESSA is meant to change the role of the Federal Government 
from dictating to supporting solutions for States and schools. 
I have concerns with the proposed regulations related to 
transportation of foster children. Under this proposal, when 
there is no agreement regulating transporting, the LEA is 
fiscally liable for the transportation costs. If that were to 
occur, then it would really undermine the negotiated language 
in the statute and diminish the responsibility of the child 
welfare agency to meaningfully engage in discussions with the 
district.
    I want to offer input related to the assurances that may be 
included as part of ESSA requirements. It is critical that 
States have rigorous standards that ensure students have the 
academic foundation that they need to be successful. In 
Arizona, we wasted a great deal of time and energy in a Common 
Core debate. To ensure challenging and relevant standards, 
States need to work collaboratively with stakeholders to 
evaluate and revise standards to drive those improvements, not 
spend vast amounts of time debating whether to reject them.
    In Section 299.16 of the proposed regulations, language is 
included requiring States to provide evidence of adopting 
challenging standards. Does that equate to the ability to 
reject the State-developed standards based on someone's opinion 
they are not challenging? If the Department of Education is 
viewed as dictating standards work, I fear once again in 
Arizona and really across the Nation resources and energy will 
be focused on debating federally mandated standards rather than 
improving those standards.
    I am concerned that an unintended consequence of adding a 
large number of regulations and/or additional reporting 
requirements will be an increase in the resources needed to 
address those mandates, resulting in a decrease in the 
resources that can be allotted to supporting students. Data 
collection and reporting is important for transparency and 
accountability. However, we need to move away from burdensome 
reporting to meaningful collection and reporting of information 
that is important to the stakeholders.
    In closing, I want to thank you for the work that you have 
done and continue to do to ensure that the Every Student 
Succeeds Act drives the change we all want to see in our 
schools, equity in our classrooms, regardless of students' 
background or circumstances. Your work has ensured our States 
and local communities have a voice in what happens in our 
districts and in our schools. I know, given the opportunity, 
educational leaders across the country will use that voice to 
deliver on the promise of ESSA. Thank you.
    [The prepared statement of Ms. Pletnick follows:]

               Prepared Statement of Gail Pletnick, Ed.D.

    Chairman Alexander, Ranking Member Murray and members of the 
committee, thank you for the opportunity to join you today.
    My name is Gail Pletnick and I am the Superintendent of the Dysart 
Unified School District in Surprise, AZ and serve as the President-
Elect for the AASA, The School Superintendents Association. To give you 
a sense of my district, we serve over 25,000 students with 51 percent 
of the population receiving free or reduced lunches, 16 percent 
identified for special education services and approximately 51 percent 
classified in a sub group other than Caucasian.
    From both a professional and personal standpoint, I view the 
passage of the Every Student Succeeds Act (ESSA) as very important to 
the future of education. Growing up in northeastern Pennsylvania and 
being from a family of coal miners, I would have fit into more than one 
of the subgroups that ESSA focuses on in terms of closing the 
achievement gap. The power of education is that the achievement gap can 
be addressed and, like me, students can be the first ever in a family 
to attend college. I am here today because I believe the underserved 
populations in our schools deserve the educational promise that ESSA 
was designed to deliver for every child.
    The power of ESSA is the flexibility it provides to States and to 
schools allowing them to focus on each student. The ESSA environment 
promises to be in stark contrast to the prescriptive and restrictive 
``one size fits all'' landscape of No Child Left Behind (NCLB). In my 
district, we have 23 different schools, each with its own unique school 
community, united in the reality that each school is filled with 
students who must be prepared for the challenges and opportunities of a 
21st century world of work and life. ESSA and the resources it provides 
allow schools to address equity issues that impact school communities 
and the students they serve.
    I understand the value of carefully crafted regulations in 
supporting ESSA implementation, but it is critical those regulations 
reflect the carefully constructed language that speaks to intent in 
this law: State and local flexibility and leadership. I am concerned 
with unnecessarily rigid regulations that may hinder the very State and 
district innovation that we know is needed to serve our underserved 
students.
    For example, ESSA statute requires evaluation of local education 
agencies (LEAs) and schools on academic and non-academic factors, but 
stops short of requiring the rating to be a single indicator. The 
proposed regulations require a summative score--an approach that may 
hinder a State's effort to design a fair and transparent accountability 
system. Reliance on a summative score provides a distorted view of the 
strengths and weaknesses of programs and practices in our schools, and 
can be misleading. In reading a report card, many readers look at the 
summative indicator and move on, and that one score does not provide a 
complete picture. We have the ability to utilize current research, 
technology and, hopefully, now the flexibility of ESSA to build much 
stronger accountability and reporting systems with meaningful multiple 
indicators.
    Education is the civil rights issue of this generation, and given 
its roots in the civil rights era, ESSA must continue to protect the 
rights of each and every student by providing access to high quality 
education. Why are we trying to reduce what should be a fair and 
comprehensive picture of schools to a single score? Data tracked on 
student sub groups indicate many schools still lag behind in terms of 
the number of low SES and minority students participating in advanced 
placement and dual credit courses. Absenteeism can be utilized as a 
predictor of student failure. Multiple measures are important in 
determining if schools are failing to support student success. Logic 
tells us if each of these components have value, we need to be careful 
not to build a system that muddles the data producing a confusing 
picture that lacks meaning and clarity. Let the States do what they 
were tasked to do: take responsibility for building transparent and 
fair accountability systems. We should not handicap that work by 
dictating a single score accountability system.
    I applaud the mandate to have stakeholders play a significant role 
in the State's development of an accountability system. People buy into 
that which they have a hand in crafting. Having input from parents, 
students, community members, teachers, support staff, administrators, 
and business and civic leaders will ensure building understanding and 
the buy-in needed to successfully implement ESSA at the State and local 
levels. Predetermining the use of a summative score in a system is 
unnecessarily prescriptive and will hinder this collaborative work. The 
goal must be for the local stakeholders, the leaders of educational 
institutions, to take responsibility for the schools and outcomes.
    I understand the Department of Education is indicating there will 
be an opportunity to adjust the States' systems if those accountability 
systems are not fully functional by the proposed date for labeling 
schools under ESSA. My experience has shown that is a flawed approach. 
In Arizona under NCLB, the State's accountability system was tweaked 
after implementation. When you use the same summative labels, such as A 
through F, but tweak the components in the system, you cause confusion 
and lose trust. Building an accountability system as you implement it 
will result in a system that does not compare apples to apples, even 
though the same summative labels are utilized for schools. The 
Education Secretary indicated the rationale for summative labels is to 
``. . . send a strong signal to educators and school leaders to focus 
on improving school performance across all indicators in the system.'' 
I believe the proposed regulation will result in just the opposite. If 
I utilize three indicators to determine my summative score and the 
school scores 100 percent in indicator one, 100 percent in indicator 
two and 50 percent in indicator three, the summative score is 83 
percent plus. Does that give a complete and true picture of how the 
school is doing in all key indicators? A summative number from 1-5 or a 
letter grade provides little information.
    In Arizona, research is being done on utilizing multiple measures 
as we work to revisit the State's accountability system. Legislation 
was passed recently to allow assessment options at the high school 
level. Additionally, a committee of stakeholders has been established 
to provide input on an accountability redesign that will ensure a 
system that is fair, transparent and identifies schools that prepare 
all students for college/career readiness. These are small steps 
forward, but with the hope of the flexibility promised by ESSA, we can 
collaborate on meaningful change driven by research and innovation. If 
States are forced to continue to utilize a one score defines all 
approach, I fear we will fall back to what easily fits into that 
restrictive labeling system and replicate much of what was created 
under NCLB.
    Compounding my concern with the regulation mandating a summative 
score is the proposed timeline for labeling schools under the new ESSA 
law. In 2017-18, States would be required to identify schools that are 
failing or in need of ``comprehensive support'' based on their 
performance data from the 2016-17 school year. In some States, 
including Arizona, we are a few weeks away from the start of the new 
2016-17 school year. States may not have their redesigned 
accountability plans finalized and in place to collect 2016-17 data 
that will be included in that redesign. The proposed timeline will rush 
the implementation of accountability system decisions and may result in 
some schools, in the first year of ESSA label implementation, being 
identified as failing based on 2016-17 data. That data may be more 
aligned to NCLB mandates. Once again, we risk losing trust when we use 
one set of data to label schools and then tweak the system, possibly 
changing some or all of the data sets utilized, and pretend the 
summative labels given are accurate and fair. How does that support 
driving meaningful change in the highest need schools? Given that 2017-
18 is the first year of ESSA implementation, it follows that 
identification under ESSA would come only after ESSA related data has 
been collected and applied at the end of the 2017-18 school year. 
Treating the 2017-18 school year in a manner consistent with how the 
2016-17 school year was addressed after ESEA waivers expired is the 
most logical approach. We should freeze accountability ratings/labels 
for that year.
    There were questions posed with the release of the regulations 
related to areas such as 95 percent participation rate, n-size and 
others. I caution the Department of Education from going any further 
beyond the regulations as proposed.
    Leaving the n-size determination up to the State, unless the State 
wants to go above an n-size of 30, makes the most sense. This language 
is clear and there is no need for further clarification or regulation.
    ESSA maintains the requirement that 95 percent of students be 
tested. This is a requirement to be taken seriously, but I am concerned 
that the proposed regulations do not allow for meaningful input to 
address this concern at the local level. The concerns that create the 
problem with meeting the 95 percent test mandate are related to local 
conditions or issues and must be solved at the State and community 
levels. Consequently, it follows that the States determine actions to 
be taken and consequences. Further prescription in this area may impede 
solutions. ESSA is meant to change the role of the Federal Government 
from dictating to supporting solutions at the local level. Language in 
the regulations indicate there are options for States in defining 
consequences for not reaching the 95 percent test rate, but then the 
language goes on to add restrictions that really limit possibilities. 
That is the equivalent of saying you can paint the house any color you 
wish, as long as it is green. So what option do you choose? This is not 
true flexibility and runs counter to ESSA's framing principles, 
empowering State and local education agencies in their work to provide 
all students with educational opportunities of ESSA.
    I have concerns with the proposed regulation related to the 
transportation of foster children. This proposal requires, if the child 
welfare agency and district cannot reach an agreement regarding 
transportation for a foster child, the LEA be fiscally liable to cover 
transportation costs. The ESSA statute requires a collaborative 
approach between child welfare agencies and LEAs. The statute 
deliberately stops short of identifying any specific entity as fiscally 
liable. This regulation undermines the negotiated language in the 
statute and diminishes the responsibility of the child welfare agency 
to meaningfully engage in discussions with the district. The regulation 
in this area is overreach.
    I want to offer input related to assurances that may be included as 
part of the ESSA requirements. It is critical States have rigorous 
standards to ensure students have the academic foundation they need to 
be successful. In Arizona, mandating what was viewed as national 
standards was hotly debated. In the last State election, candidates who 
strongly opposed Common Core standards, including those running for the 
Governor's Office and the Office of the Superintendent of Schools, won 
the elections. It was unfortunate that we wasted a great deal of time 
and energy in an emotional and divisive Common Core debate. The dialog 
around what was viewed as federally mandated standards was an all or 
nothing conversation. To ensure challenging and relevant standards, 
States need to work collaboratively with stakeholders to evaluate and 
revise the standards to drive improvements, not spend vast amounts of 
time debating whether to reject them.
    In Section 299.16 of the proposed regulations, language requires 
States to

          ``provide evidence at such time and in such manner specified 
        by the Secretary that the State has adopted challenging 
        academic content standards and aligned academic achievement 
        standards . . .''

    Does that equate to the ability to reject the State developed 
standards based on someone's opinion they are not challenging? The new 
law explicitly changed NCLB language that required States to 
``demonstrate'' they have challenging academic standards to requiring 
States ``assure'' they have challenging academic standards. This was 
intentionally done to return responsibility for developing standards to 
the States. In Arizona, we are now just starting to be able to move 
forward and work on improving the standards. If the Department of 
Education is viewed as dictating standards work, I fear, once again, 
Arizona resources and energy will be focused on debating the idea of 
federally mandated standards rather than improving the standards.
    I am concerned that an unintended consequence of adding a large 
number of regulations and/or additional reporting requirements will be 
an increase in the resources needed to address these mandates resulting 
in a decrease in the resources that can be allocated to support 
students. Data collection and reporting is important to ensure 
transparency and accountability. However, there is such a thing as 
being data rich and information poor. We need to move away from 
burdensome reporting, and toward meaningful collection and reporting of 
information that is important to the stakeholders. The intent is to 
return authority to the States and have input from community members 
into the building of an accountability system. We should be cautious, 
once again, that if the States are bound by assurances that are viewed 
as dictates or by unreasonable reporting requirements, the same type of 
mistrust, unnecessary debate and concern we had with NCLB waivers and 
Common Core will re-surface. I can assure you that will be the case in 
Arizona, and I know we were not the only State where these concerns 
caused major upheaval and stalled productive and meaningful change. 
Please, do not allow that to happen again.
    We also need to be mindful of possible changes within the 
supplement, not supplant provision. With teacher salaries the largest 
expenditure in a school district, it is a false premise to require 
schools to use teacher salaries in evaluating compliance with 
supplement, not supplant provisions, as it is a policy built on the 
false assumption that teacher salaries are a single indicator that can 
meaningfully and reliably be used in an undisputable manner to indicate 
effectiveness and quality in programs within title I schools. That 
thinking is flawed on many levels. Perhaps most importantly, it assumes 
States and schools across the Nation employ one single approach to 
determining teacher salaries. This is not the reality. In my State 
alone, districts and schools maintain discretion over teacher salaries, 
the years of credit that teachers receive when changing districts and 
other factors that will impact final teacher salary. Regulations on the 
supplement, not supplant provision must remain consistent with the 
intent of ESSA, which included a deliberate action to not change the 
comparability provision and maintained the focus of the supplement, not 
supplant provisions ensuring that the methodology or construct used to 
allocate resources within a district is blind to whether or not an 
individual school receives title I dollars.
    In closing, thank you to the committee for the work you have done 
and continue to do to ensure the Every Student Succeeds Act drives the 
change we all want to see in our schools--equity in our classrooms 
regardless of a student's background or circumstances. Your work has 
ensured our States and local communities have a voice in what happens 
in our districts and schools. I know, given the opportunity, 
educational leaders across this country will use that voice to deliver 
on the promise of ESSA.
    Thank you.

    The Chairman. Thank you, Dr. Pletnick.
    Ms. Welcher.

    STATEMENT OF ALISON HARRIS WELCHER, DIRECTOR OF SCHOOL 
          LEADERSHIP, PROJECT L.I.F.T., CHARLOTTE, NC

    Ms. Harris Welcher. Good morning, Chairman Alexander, 
Ranking Member Murray, and other distinguished members of the 
committee. Thank you for the opportunity to testify before you 
today on the Department of Education's proposed accountability 
guidelines.
    For the past decade, I have dedicated my life to educating 
the students of Charlotte, NC, first as a classroom teacher and 
then 7 years as a school leader. When I became principal of 
Ranson IB Middle School in 2011, it was one of the lowest 
performing schools in the district. We had many teenagers who 
could not read and many who were not making the growth needed 
to be successful.
    Just 4 years later, Ranson was one of the top 25 schools in 
the State on growth composite index measures.
    School transformation is hard. School transformation takes 
time, but it is possible. Most recently, I've had the privilege 
to work with Ranson in eight other high-needs schools in 
Project L.I.F.T. as the Director of School Leadership.
    The Every Student Succeeds Act ushers in a new era of local 
control and exciting opportunity for innovation, but it also 
poses challenges that we must address with thoughtful 
implementation.
    The proposed State plan requirements recognizes the 
relationship between educator quality and school improvement, 
but they could do even more to encourage investments in 
leadership. The success of any school intervention comes down 
to the capacity of the educators, not enough of whom receive 
the training and support they need to be effective in demanding 
turn-around environments. Yet we know teachers thrive and stay 
in schools that are led by principals, and together these 
educators get stronger results for students faster.
    The proposed regulations should ask States and districts 
how they will ensure all schools, especially those identified 
for improvement, are led by well-prepared, well-supported 
principals. And in light of the disastrous consequences 
leadership transitions can have on teachers and students, those 
plans also must address strategies for sustaining quality 
leadership over time.
    Next, State accountability systems will now provide a more 
holistic picture of our students' school experience, and they 
should continue to direct our efforts toward ensuring all kids 
achieve at high levels. The academic gains that we achieved at 
Ranson came only after we addressed the culture and 
intentionally built an environment that was conducive for 
learning.
    What gets measured gets done. The new indicators of school 
quality reflect underlying conditions for effective teaching 
and engaging learning. Add resource equity to the mix and we 
get an accountability framework that is truly based on multiple 
measures and in many ways addresses No Child Left Behind's 
over-reliance on test scores alone. At the same time, I 
appreciate the regulations keeping the focus on academic 
outcomes. Ultimately, our job as educators is to grow and gain 
academic mastery so that all of our scholars can be ready for 
life beyond the classroom.
    Finally, report cards will now provide a more detailed, 
multifaceted snapshot of our schools that must also be clear 
and actionable. Principals rely on underlying data from report 
cards to make decisions about how to marshal school resources 
to support teachers and students and communicate that progress 
to families and communities. We need transparent, timely data 
on all kids and student subgroups, keeping us focused on our 
most vulnerable students and holding everyone accountable for 
ensuring that we have resources to succeed.
    Though there is a considerable debate surrounding the 
merits of a summative school rating, I see no world in which we 
can empower our parents and communities to hold us accountable, 
offer support, and advocate for change without them. Let me be 
clear: There is no perfect way to summarize the beautiful, 
complex, and sometimes very messy work that happens in a 
school, but that does not give us the right not to do it.
    Before I conclude, I want to make one last plea. Though not 
required by the law, I urge States, with appropriate 
encouragement from Federal officials, to include growth 
measures in the new accountability systems. One of the greatest 
struggles I faced as a principal was convincing the parents and 
the community that I serve that we were truly turning things 
around at Ranson IB Middle School.
    I chose a career in education because I am committed to 
making a difference for students who desperately need our 
school systems to give them a fair shot at success in life. 
Educators making progress in the lowest-performing schools, 
they absolutely need our support and they need recognition to 
keep up the momentum.
    Thank you once again for the opportunity to share my 
perspective on the importance of investing in leaders, 
responsibly using non-academic measures, making report cards 
useful and user-friendly, and emphasizing growth for schools in 
transformation.
    And thank you for your willingness to listen, learn, and 
craft a Federal accountability framework that includes 
appropriate checks and balances while unleashing educators to 
help our students, all students, grow, thrive, and fulfill 
their potential.
    Thank you.
    [The prepared statement of Ms. Harris Welcher follows:]

              Prepared Statement of Alison Harris Welcher

    Chairman Alexander, Ranking Member Murray, and other distinguished 
members of this committee, thank you for the opportunity to testify 
before you today. And thank you for your leadership in passing the 
Every Student Succeeds Act (ESSA).
    For the past decade, I have dedicated my life to ensuring students 
in Charlotte, NC, have access to an outstanding education that inspires 
them to dream big and prepares them to become productive, successful 
citizens--first as a classroom teacher and, for 7 years, as a school 
leader.
    When I became principal of Ranson IB Middle School in 2011, it was 
one of the lowest-performing schools in the district. We had teenagers 
who couldn't read. There were classrooms full of kids where no learning 
was happening. I chose to lead Ranson because I am committed to serving 
students who desperately need our education system to help give them a 
fair shot at success.
    Within 4 years, we moved Ranson from a report card grade of ``D'' 
to ``C.'' What that shift means for kids is that we exceeded all of our 
growth targets and were in the top 25 schools in the State on the 
growth composite index measure. There is a real difference between 
maintaining excellence and building it--and I am incredibly proud of 
the educators at Ranson for their tireless efforts that continue to 
this day. School transformation is hard, it takes time, and it is 
possible.
    Most recently, I have had the privilege to work with Ranson and 
eight other high-need schools as the Director of School Leadership for 
Project L.I.F.T., a public-private partnership that supports educators, 
students, and families in Charlotte's west corridor.
    I am honored to bring that experience to this committee to provide 
feedback on the U.S. Department of Education's proposed regulations 
regarding accountability systems, State plans, and data reporting.
    ESSA ushers in a new era of local control for our education 
system--one in which States will have greater autonomy to define and 
set benchmarks for acceptable school performance and in which districts 
and schools will be charged with developing evidence-based, locally 
tailored strategies to close achievement gaps and improve schools that 
don't make the cut.
    For those of us working in the highest-need communities--where the 
challenges of school transformation have often been amplified, rather 
than alleviated, by one-size-fits-all accountability mechanisms--this 
shift presents an exciting opportunity for innovation.
    But it also poses significant challenges that we need to address 
via thoughtful implementation.
    The success of any school improvement strategy comes down to the 
capacity of our educators. And while many teachers and principals are 
deeply committed to serving our most vulnerable students, not enough 
receive the training they need to effectively support students, their 
families, and one another in demanding turnaround environments.
    Even when we are successful in attracting well-prepared educators 
to the schools most-in-need, if the conditions are not supportive and 
the school climate is dysfunctional, strong teaching and learning 
cannot happen. Though a safe, supportive environment does not itself 
result in academic gains for students, dramatic and sustained 
improvement simply cannot occur without it.
    Addressing school culture requires strong leadership and a shared 
vision, as well as effective communication and collaboration between 
educators, students, families, and community members. Unfortunately, 
State accountability tools--particularly school report cards--have not 
historically lent themselves to clear, productive interactions between 
schools, families, and communities. Educators need better tools and 
resources, and parents deserve clear, transparent, accurate information 
on how schools are performing for all students.
    Many aspects of the regulations the Department proposed in May are 
a good first step toward addressing these challenges. I want to 
highlight a few key areas where Federal officials have an opportunity 
to leverage the regulatory process to promote strong practices at the 
State, local, and school levels.
    The first is related to school leadership and school improvement in 
State plans.
    Everything that happens in schools--setting high expectations for 
students, helping teachers grow and improve their practice, engaging 
families, managing change, everything--depends upon the caliber of our 
Nation's school leaders. They account for one quarter of a school's 
effect on student learning,\1\ and a highly effective principal can 
increase student achievement by as much as 20 percentage points.\2\ 
Clearly, strong leadership, school improvement, and student success go 
hand in hand.
---------------------------------------------------------------------------
    \1\ Leithwood, K., Louis, K. S., Anderson, S., & Wahlstrom, K. 
(2004). How Leadership Influences Student Learning. New York, NY: 
Wallace Foundation. Retrieved from http://www.wallacefoundation.org/
knowledge-center/school-leadership/key-research/Pages/How-
LeadershipInfluences-Student-Learning.aspx.
    \2\ Marzano, R.J., Waters, T., & McNulty, B.A. (2005). School 
leadership that works: From research to results. Alexandria, VA: 
Association for Supervision and Curriculum Development.
---------------------------------------------------------------------------
    As decisionmaking shifts away from the Federal Government, it is 
more important than ever that our Nation's schools be led by 
individuals who possess the skills and technical prowess to design and 
adopt school improvement strategies that truly make a difference for 
kids. The proposed regulations rightly ask States to develop plans that 
detail how they will strengthen the preparation, support, and 
development of not only teachers but also principals and other schools 
leaders--particularly those serving our most vulnerable students.
    Moreover, the regulations require States to describe their 
strategies for ensuring historically underserved students have access 
to experienced and effective teachers. Principals are a key lever for 
ensuring students have equitable access to great teachers in every 
classroom, every year. Our ability to recruit, develop, and retain 
outstanding teachers is deeply connected to the quality of our school 
leaders. No one wants to work for a bad boss. In fact, 97 percent of 
teachers say school leadership significantly affects their career 
choices.\3\ Teachers thrive--and stay--in schools led by outstanding 
principals and leadership teams and, together, these educators get 
stronger, sustained results for students.
---------------------------------------------------------------------------
    \3\ Scholastic Inc. (2012). Primary Sources: America's Teachers on 
the Teaching Profession. New York, NY: Scholastic and the Bill and 
Melinda Gates Foundation. Retrieved from http://www.scholastic.com/
primarysources/pdfs/Gates2012_full.pdf.
---------------------------------------------------------------------------
    The proposed regulations could address educator capacity and equity 
by asking States to ensure districts have strong plans in place to 
ensure all schools--particularly those identified for comprehensive 
support and improvement--are led by a well-prepared, well-supported 
principal. And, in light of the unacceptably high turnover rates of 
principals serving low-income schools,\4\ those plans should also 
address strategies for sustaining quality leadership over time--
including system-wide efforts to make the principal role more effective 
and sustainable and to build robust leadership pipelines that can be 
tapped into for succession planning.
---------------------------------------------------------------------------
    \4\ U.S. Department of Education, Institute of Education Sciences, 
National Center for Education Statistics. (2014). Principal Attrition 
and Mobility: Results From the 2012-13 Principal Followup Survey (NCES 
2014-064rev). Retrieved from http://nces.ed.gov/pubs2014/
2014064rev.pdf.
---------------------------------------------------------------------------
    Regarding State accountability systems, I am pleased they will now 
include an indicator that looks at ``school quality or student 
success,'' providing a more holistic picture of our students' school 
experience.
    When I first took the helm of Ranson, it was clear I had to make 
major structural adjustments before we could embark on the critical 
work of upgrading the instructional program and practices. In 
particular, I had to get all teachers on the same page that all of our 
students were capable of excelling and rebuild a sense of trust and 
safety among staff and students, alike. It was only after addressing 
our school culture and climate that we could more deeply focus on 
academics.
    I have since visited countless schools that aren't achieving great 
results because there are issues with the culture or conditions that 
make it extremely challenging for students to engage in learning and, 
frankly, make the work exhausting and unsustainable for teachers. Often 
these conditions are the result of or are exacerbated by gross resource 
inequities, which I am pleased the regulations require districts and 
schools to address in their plans to improve the lowest-performing 
schools and close large achievement gaps.
    What gets measured gets done. Incorporating other measures of 
school quality into accountability systems means there is an incentive 
to focus on the underlying conditions for effective teaching and 
engaging learning. Add to the mix a strong focus on resource equity, 
and we get an accountability framework that is truly based on multiple 
measures and in many ways addresses No Child Left Behind's overreliance 
on test scores alone.
    At the same time, I appreciate that the Department's proposed 
regulations keep the focus of accountability systems on academic 
outcomes, due to the statutory requirement to place ``much greater 
weight'' on the academic indicators in State systems. Ultimately, 
everything we do as educators to address school conditions is in 
service of helping our students grow, improve, and gain academic 
mastery so they are ready for their next steps in life. The parameters 
included in the proposed regulations place reasonable constraints on 
the school quality indicator and I urge the Department to retain those 
guardrails in the final version.
    Finally, we must consider data reporting. Though report card data 
cannot tell the entire story of a school, it is critical that 
information on report cards is presented in a way that is easy to 
understand and captures as much of the full picture as possible.
    School leaders rely on the underlying data from report cards to 
make decisions about how to marshal school resources to support 
teachers and students to reach our shared goals. We need timely data 
that are disaggregated by student subgroups and capture the performance 
and progress of all kids--keeping us focused on meeting the needs of 
our most vulnerable students and holding school system leaders 
accountable for ensuring we have the resources necessary to help all 
children succeed.
    Moreover, we use report cards to communicate progress with families 
and community members. Parents deserve to know how schools are 
performing so they can hold us accountable, offer support, and make 
informed decisions about the learning environments that will meet the 
needs of their children. They need snapshot data on key indicators as 
well as an overall summary. Ideally, these resources are radically 
transparent, including as much information as possible on student 
subgroups and school resources, while meeting the equally important 
charge of being easy to understand. Our job as educators is to engage 
with stakeholders and use the data to tell the story of our schools and 
advocate for our students.
    As a practitioner, I also want to know which of my colleagues are 
working in schools that are getting results--for all kids and for 
individual groups of students--so I can seek them out to learn and 
collaborate, particularly if they are doing great work in areas where 
we need to improve.
    Though not required by statute, my plea to policymakers is that 
they take advantage of the opportunity to ensure report cards and 
underlying accountability systems include growth measures, particularly 
for schools in transformation. One of the greatest struggles I faced as 
a principal was convincing parents and members of our community--many 
of whom attended Ranson when they were young and watched its slow 
decline over the course of many years--that we were truly turning 
things around. Educators making progress in the lowest-performing 
schools need support, encouragement, and recognition to keep up the 
momentum.
    Ultimately, the purpose of our education system is to meet students 
where they are--whether they're three grade levels behind (like many of 
our students), at grade level, or above--and support their development. 
No matter their proficiency level, our job is to move students forward. 
That's called good pedagogy and that's what it takes to do right by all 
of our kids.
    Thank you, once again, for the opportunity to share my perspective.
    And thank you for your willingness to listen, learn, and ensure 
Federal policies retain appropriate checks and balances on behalf of 
our Nation's most vulnerable children while unleashing States, 
districts, and schools to execute plans that help all students grow, 
thrive, and fulfill their potential.

    The Chairman. Thank you, Ms. Welcher.
    Senator Murray.
    Senator Murray. Mr. Chairman, thank you. I'm going to 
submit my questions for the record because I have another 
commitment. But I really want to thank all of you for your 
input today and wise counsel, and I look forward to working 
with all of you as we implement this.
    Thank you.
    The Chairman. Thank you, Senator Murray.
    We will now begin a round of 5-minute questions, and I'll 
start.
    Three of you mentioned the timeline that States have, and 
Senator Murray and I have both asked Secretary King about it.
    Dr. Pruitt, let me be specific about it. Would it make 
sense to you that Kentucky could develop its new accountability 
system during the 2017-18 school year, the next school year, 
the one coming up, and then begin to identify new schools in 
the following school year, which would 2018-19? And in the 
meantime, you would continue to support and work with those 
schools that are in trouble that you've already identified. Is 
that what I understand you to say would be a solution, a 
sensible way to go?
    Mr. Pruitt. Yes, sir, absolutely. Of course, if our schools 
have already been struggling, we would not leave them out. We 
would definitely continue to support them. But what giving us 
that extra time would do is give us more time to really engage 
our stakeholders to ensure that we actually have buy-in on the 
system. For me, a big part of our new accountability system has 
to be built on more trust between the State and local levels.
    The Chairman. Would it be helpful if Secretary King did 
agree with that schedule? Would it be helpful if he announced 
that soon so that you could make your plans according to that 
schedule?
    Mr. Pruitt. Absolutely, it would. In Kentucky, we have to 
start on our regulatory process actually in January for us to 
have it through all of our systems to submit to U.S. Ed. If he 
would announce it right now, it would mean that we would have 
more flexibility in our timeline, and I believe we could do a 
better job.
    The Chairman. Dr. Pletnick, you're a superintendent. Does 
that make sense to you?
    Ms. Pletnick. It absolutely does make sense. Another 
concern that we have is that in order to really get the voices 
of all the stakeholders in a large State, that does mean going 
out there, bringing all that information in. We need that time 
to do research. Because we were locked into that compliance 
with No Child Left Behind, we didn't necessarily have the 
opportunity to look at those multiple indicators that would 
make sense. We need that time because we need to make good 
decisions.
    My concern is if we start using some of that data and 
labeling these schools, and then we tweak the system, we really 
are losing trust from the stakeholders because even though you 
might have that same summative A through F label, you've 
changed components. So that A score really isn't an apples-to-
apples comparison the next year when you label it A or F or 
whatever other label.
    The Chairman. Let me move on. I've just got a couple of 
minutes left.
    Dr. Darling-Hammond, you've talked about California and 
other States that are using this opportunity, which I would 
hope they would. This is an unusual opportunity. We have a new 
law which may set the policy for 10 or 15 years. It means every 
State will be developing new plans which won't need to be 
changed unless they make major plans. This should be a period 
of great innovation and excitement and enthusiasm school by 
school and district by district.
    Is it your thought that too short a timeline would 
discourage that? And what would you think of the schedule that 
I just described with Dr. Pruitt?
    Ms. Darling-Hammond. The schedule makes perfect sense. Too 
short a timeline both means you'll make worse decisions about 
the structure and the data in the accountability system and 
lose the stakeholder input. I know our State board is meeting 
this week, and there were hundreds of people there giving 
commentary. They're trying to model the way the data would look 
to identify schools. The time is needed to do a good job.
    The Chairman. It is my hope that Secretary King will 
announce before long that it would be appropriate under the new 
law, because it was my intention at least, and I think for many 
of us, that States would create their accountability systems in 
the school year coming up, keep working with the already-
identified schools, but then begin to implement the new system 
in the following year.
    I have about 30 seconds left. Dr. Pletnick, in about five 
different places in the law we try to make clear that the U.S. 
Department of Education cannot tell Arizona what its academic 
standards should be. We changed the word from ``demonstrate'' 
to ``assure.'' We put specific prohibitions in the law. Is the 
way you read this new regulation, do you believe that the U.S. 
Secretary of Education could decide to reject Arizona's 
academic standards if he chose to?
    Ms. Pletnick. I believe that is the way that I would 
interpret it, and my fear is others would as well. This debate, 
whether that was the intent or not, this debate could start 
again over Common Core when we're just starting to move forward 
and really look at our standards and improve them.
    The Chairman. Yes. Do you read anything in the law that 
suggests that the U.S. Secretary of Education ought to be able 
to tell Arizona what its academic standards should be?
    Ms. Pletnick. I did not, and as Arizona, we did not. We 
started the work on reviewing and revising standards so that 
they would better reflect what our State's needs were.
    The Chairman. Thank you very much.
    Now I'm going to excuse myself for a few minutes to go to a 
meeting, and I'll be back. But in the meantime I'm going to 
hand the gavel to Senator Paul.
    Senator Paul [presiding]. Thank you, Senator Alexander. 
I've been wanting to be chairman for quite some time.
    [Laughter.]
    The Chairman. Senator Casey would be next.
    Senator Paul. OK. At this time I'll recognize Senator Casey 
for questions.

                       Statement of Senator Casey

    Senator Casey. Thanks very much, Mr. Chairman, officially.
    I want to thank the panel, and I'm sorry I wasn't here 
earlier for your testimony. We are grateful that you're here to 
provide testimony and answer questions, but really to bring 
your experience and expertise to these issues.
    I do want to start just on a brief personal note. I noticed 
from the biographies, Dr. Pletnick, you've got significant 
Pennsylvania roots.
    Ms. Pletnick. I have.
    Senator Casey. Born in what town?
    Ms. Pletnick. Edwardsville.
    Senator Casey. OK. Luzerne County.
    Ms. Pletnick. Most people don't recognize that. I have to 
say ``close to Philadelphia,'' but I knew you would.
    Senator Casey. There's an Edwardsville, IL, too, I know 
that. But also it says you were principal in four districts in 
Pennsylvania before going to Arizona. Is that right?
    Ms. Pletnick. In four different schools.
    Senator Casey. Schools.
    Ms. Pletnick. Right, yes. My last job was in Wallenpaupack.
    Senator Casey. OK, not far from where I live. I just want 
to make that connection, highlight your biography a little more 
than it might have been before.
    Ms. Pletnick. Thank you.
    Senator Casey. But thank you so much.
    I guess I wanted to start and try to get to as much of the 
panel as we can in a short time on the question of early 
learning, which has been a priority for me a long time. I'm not 
just a believer in the value of early learning but the good 
news is all the research validates that belief, which is 
literally that kids will earn more later if they learn more 
now. That learning and earning connection is substantial, but 
we haven't really made the kind of national commitment that we 
need. A lot of States have done some good work and have really 
advanced, especially in the last decade, but we have a lot more 
to do, and I think part of that can be Federal Government 
policy, working with the States in partnership.
    I know that, Dr. Darling-Hammond, your organization 
recently released an analysis of several high-quality, State-
based early learning programs, so I wanted to ask you a little 
bit about that. This is the one-page overview of it. But I 
wanted to ask you, I guess in the context of the work that your 
study undertook, what would you tell us about the best ways to 
expand access, knowing that this cannot be a Federal Government 
program only, but I think it's an area where we can work in 
partnership with the States.
    Ms. Darling-Hammond. Thank you, glad to talk about that, 
and happy to send you the 250-page-long report, if you'd like 
it, as well. By the way, I was credentialed at Temple 
University as a high school teacher and taught in the 
Philadelphia area, while we're identifying Pennsylvania roots.
    Senator Casey. Thank you.
    Ms. Darling-Hammond. Yes. Our study that was released last 
week, which looked at four States' exemplary preschool 
programs--Washington, West Virginia, Michigan, North Carolina, 
and there are others--found that the key things that make a 
difference, which ESSA gives us some inroads on in the law, are 
the investments in quality standards and coaching programs to 
those standards, staff development, increased coordination of 
programs, Federal and State, in very strategic ways. It's a 
complicated system, and simplifying and streamlining that so 
that people can manage all those funding streams is very 
important, and strategically using those. Then, creating those 
transitions between preschool and kindergarten, and designing 
targeted interventions through early childhood education, which 
ESSA could allow for as well.
    There's a very substantial agenda that is needed for early 
childhood education in this country. We know that it can really 
dramatically close the achievement gap that exists before kids 
get to school, and that is the purpose of our major Federal 
laws. It's a good step in the right direction. Obviously, as 
you know, there is more that can be done.
    Senator Casey. I'm grateful for that. I know that in our 
coming together here in the Senate and the House to pass ESSA 
that we do now have early learning alignment improvement 
grants. I don't know if you or anyone else has any advice or 
guidance on how best to manage that part of the legislation.
    Ms. Darling-Hammond. I do think that there are places in 
different parts of the law where alignment, transitions, 
professional development are created, and one of the things 
that will be helpful in the regulations, guidance and 
implementation is having a holistic view about how States can 
use those provisions to create a seamless system as they make 
those investments.
    Senator Casey. I'm out of time, but maybe we'll ask others 
to submit something in writing on early learning if you wanted 
to comment further, but I'm down to zero.
    Thanks very much for your work, and I'm grateful to be with 
you today.
    Senator Paul. Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman.
    Ms. Welcher, I apologize to you. I had every intention of 
getting over here to introduce you, as I look forward to having 
North Carolina talent in the U.S. Senate. But, welcome, and I'm 
sure the Chairman did an adequate job, but not like somebody 
from North Carolina could have introduced you.
    Ms. Welcher, you're passionate. That's what I love. And not 
only do you have the experience in the classroom, you were 
tasked with a turn-around, and you succeeded. And now in your 
capacity here, you're not only teaching, you're inspiring other 
teachers to improve.
    Senator Casey and I had a little spat last year. It wasn't 
something that lingered on, but we changed title II funding, 
and over the next 7 years North Carolina is going to get $24 
million more to go to specifically that. What does that mean 
for North Carolina?
    Ms. Harris Welcher. Yes, thank you so much. I think it 
means a great opportunity for innovation. We really have to 
look at doing things differently in how we support school 
leaders. At the end of the day, as great as a teacher is, a 
great teacher is not going to stay in a school. People don't 
leave organizations because of the organization. They leave 
because of a not-so-great boss.
    I think we have a great opportunity to really look at how 
we train and develop and support school leaders, how we build 
pipelines for school leaders.
    We also have an opportunity to think about what other 
transformational opportunities can we create for teachers. We 
see the numbers of teachers who are leaving the profession, and 
those who are just not even entering to begin with. We have to 
think more creatively about how we support our teachers and 
give them something they know they can hold on to and create a 
career out of.
    Last, I really believe we have an opportunity to provide 
some innovative spaces for our schools of how they serve our 
students. We have some major achievement gaps in subgroups. 
Every child does not learn the same way. Every school cannot 
turn around the same way. We have to give that flexibility to 
our districts to really research, explore, and understand what 
are the ways that they can truly increase student achievement 
and sustain that achievement over time. The point of a turn-
around is to turn it around. A school should not perpetually be 
in turn-around. So we've really got to figure out a way to 
allow schools and districts to find innovative ways that will 
work for their school so that all students can succeed and the 
community can have a great school forevermore.
    Senator Burr. Which is one of the reasons we tried to be as 
specific about empowering States and local communities. Listen, 
I understand. This is not my first rodeo of 22 years up here. 
Agencies have to write regulations. But writing a regulation 
and interpreting that regulation correctly, I want to make sure 
you maintain the flexibility that you need.
    When Erskine Bowles was president of the university system, 
he came to me 1 day and he said I need a grant to be able to 
follow teachers that we educate at the University of North 
Carolina so that we can figure out whether we're teaching them 
how to teach the right way in the 21st century. How important 
is that?
    Ms. Harris Welcher. It's hugely important. Many of us, as I 
look around this room, the way that students are learning today 
is not the way that we were taught, right? We're taking 
strategies and saying, oh, this is how I did school. That 
doesn't work anymore for our students. We have to really 
understand how do students learn, and we have to understand 
what works. If it's not working, then we need to fix it. We're 
not going to get any different result, we know that, if we keep 
doing the same thing.
    We have to spend that time to explore and understand what 
are the great teachers, the most effective teachers doing, what 
are the most effective schools doing, and figure out how we can 
replicate that. We don't need to keep reinventing the wheel. 
The reality of it is our students don't have any more time for 
that. A student has 1 year to get it, and many of the students 
that I've worked with, we have to advance their learning more 
than a year's worth because they're coming to us so far behind.
    It's imperative that we absolutely figure out what the most 
effective teachers, most effective schools and leaders are 
doing so that we can replicate that as quickly as possible.
    Senator Burr. I thank you for that, and thank all the 
witnesses for their valuable testimony today. I'll conclude by 
saying this, that K through 12 has no partisanship in 
Washington because I think we truly all not only believe but 
strive to make sure that the current generation in K through 12 
is provided the tools they need to compete in the 21st century, 
and with every child that we don't get across the goal line of 
graduation, their options for life are so much more diminished. 
I think we have a moral obligation to make sure that every one 
of them has an equal opportunity, and that starts with a great 
education.
    Thank you very much for being here.
    Senator Paul. Thank you, and thank you to the panel.
    I was never a big fan of No Child Left Behind. I thought it 
federalized too much, took away too much power from the States, 
the teachers, the parents, everybody. I think to have 
innovation you need more local control of schools and more 
empowerment of local people who are seeing the problem up close 
and personal.
    The intent of the legislation was to allow more creativity, 
innovation, and more sovereignty of States. When I hear from 
Commissioner Pruitt that the proposed regulations stifle 
creativity, innovation, and the sovereignty of States, I wonder 
to myself how can a piece of legislation that was intended to 
give you more power somehow still be running into the same 
problems that we all thought were a problem with No Child Left 
Behind? How could the intent of both sides somehow be ignored, 
and what do we do to fix it? If Senator Alexander were here, I 
would actually ask him that question. How do we create 
legislation better where the intent actually is fulfilled in 
the regulations?
    But since Dr. Pruitt said this about the proposed 
regulation, I'd like to hear your theory of how can we get the 
intent of the legislation to actually work. Is it just a 
misinterpretation of what our intent was? Will the hearing 
further that? What is the consensus among--and we'll go to the 
rest of the panel. What is the consensus among people from all 
different political persuasions on this issue?
    Mr. Pruitt. I actually believe that this is not a political 
issue as much as it's an issue of doing what's right. Recently 
I heard a quote that basically said there's a difference 
between what you have a right to do and what you should do to 
be right, and I believe that a lot of what these regulations do 
is it's something that could actually cave in under its own 
weight, which is sort of what NCLB did. There were so many 
regulations and inconsistencies within that that it created so 
many goals that schools couldn't possibly meet all of those 
goals, and that's one of my concerns with the current 
regulations, that there's such a vast amount of regulation that 
it could actually implode.
    Senator Paul. One of the things that we were talking about 
is when the accountability standards will be enforced on this 
timetable that Senator Alexander brought up. What would happen, 
just hypothetically, if there were no accountability standards 
coming from the Federal Government? Wouldn't each individual 
State have accountability standards? When you had a waiver from 
No Child Left Behind, it didn't disappear and you said we're 
not going to be accountable. You just simply made those 
decisions within your State.
    Mr. Pruitt. Absolutely. I believe accountability is 
necessary, and I believe my colleagues around the country are 
fully embracing the idea that accountability is important. But 
I also think that we're moving away from just accountability 
and more into shared responsibility for all of these students. 
If there were none, I believe we would still have 
accountability. In fact, in Kentucky, we were under the waiver, 
and I believe that we actually had a system that in many ways 
exceeded what the Feds would have liked for us to do.
    But we are going to make sure that our students are held to 
a consistent and equitable outcome. I also believe that just 
because we disagree does not mean that we're not supportive of 
equity. I think there are different ways to get to that. For me 
and for Kentucky, we're going to ensure that every single 
child, regardless of where they live or what their needs are, 
they're going to be met.
    Senator Paul. From the other members of the panel--we'll 
start with Dr. Pletnick--do you think we are having some 
problems between the regulations actually coming forward and 
representing the true intent of what the bill said? And do you 
think that's a problem?
    Ms. Pletnick. I do see that there is that disconnect, and 
sometimes I think we're well-meaning when we try to provide 
those supports, but there are unintended consequences. I thank 
the committee for hearing from the practitioners who are 
looking at these regulations and saying we understand that the 
intent may have been for support, but what you're actually 
doing is stifling us, keeping us from doing the innovative 
things.
    From a very local perspective, a superintendent's 
perspective, if I weren't serving my students, I would hear 
from the owners of our system, and the owners are those 
taxpayers, those community members that are supporting our 
public school system, and they would not allow us to continue 
to do things that were harmful to children.
    Senator Paul. Dr. Darling-Hammond.
    Ms. Darling-Hammond. I think it may be unintentional. As 
regulations get written and you think about how will people 
figure out how to do this law, it may be unintentional that 
they sometimes get so narrow. But what ESSA has done across the 
country is really unleash a lot of creative energy. A lot of 
people--constituents, advocates, State officials, educators, 
civil rights groups--are all working on developing these new 
systems. I think that as we get information about what States 
are planning to do and preparing to do, which would come 
through the system for peer review, it should be easier to 
right-size the regulations so that they allow for those good 
solutions that are already being developed in the States that 
maybe were hard to imagine a few months ago, before the energy 
really took hold.
    Senator Paul. I think important to remember, though, that 
the goal of the bill was not to have no regulations but to have 
them closer to home where you are deciding those in your 
States, not at the Federal level, and to make sure that it's 
not so overbearing in its application that we do exactly what 
we did with No Child Left Behind. In my medical practice, I 
would see teachers all the time. I never met a teacher who 
liked No Child Left Behind, not one.
    Ms. Welcher.
    Ms. Harris Welcher. Yes, I'll just add to what the panel 
has already stated. As practitioners, we need to understand 
what the regulation really wants us to do to improve outcomes 
for all students. As it relates to accountability across States 
in the Nation, the reality of it is we need high expectations 
for all students, whether it's in North Carolina, Kentucky, 
Arizona, California. The students I serve are going to be 
competing with students in all of these States and, the 
reality, across the world. My concern is that we must have high 
expectations for all students.
    It varies, and it has varied across the Nation, and that's 
not OK. I want my students to have the same opportunity to go 
to Harvard 1 day, but that may not always be the case if States 
are left to develop whatever their own accountability system 
may be. That may be a lower standard.
    Senator Paul. Or a higher standard.
    Ms. Harris Welcher. Or higher.
    Senator Paul. Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chair.
    Thank you, all of you, for being here. I'm sorry that I was 
in and out. I caught most of your opening statements.
    I was one of the primary authors of the accountability 
sections which we're talking about here today with respect to 
the new regulations, and I think that when we wrote those 
provisions in the bill, had we imagined that upon the release 
of the regulations that we would have received statements of 
support from both the Council of Chief State School Officers 
and the Leadership Conference on Civil and Human Rights, we 
would have figured that we got it largely right. I'd like to 
offer those two statements into the record, if there's no 
objection, and admit that, of course, none of this is going to 
be perfect.
    [The information referred to was not available at time of 
print.]
    I want to ask you, Dr. Darling-Hammond, about this question 
of measuring what is good versus what is perfect. I agree with 
you that a summative score for a school is going to be 
imperfect in that there is no perfect way to measure anyone's 
performance with a numerical grade, with a letter grade, with 
one simple number attached to it. But, of course, we do it all 
the time in education, and we often, as you mentioned with 
respect to report cards, engage in a practice where we have a 
summation of a student's performance and then determinations 
underneath that summation of how they have done in particular 
subjects. I know that because I remember in high school that I 
had a class rank that was the thing that most people paid 
attention to. But underneath that class rank I also had grades 
in all of my subjects. I paid attention to that class rank, but 
I also paid attention to the grades. It didn't seem to be 
mutually exclusive, that I only paid attention to the class 
rank or I only paid attention to the grades.
    I'd like to ask you two things. One, why don't you think 
that parents or policymakers would pay attention to all of the 
sub-measurements simply because there's a summative number or 
letter or score sitting on top of it? And second, how would we 
determine what the lowest 5 percent of schools are if we don't 
have a summative assessment of schools? How do we do that in a 
transparent way if you don't have an overall measurement of a 
school's performance?
    Ms. Darling-Hammond. Those are great questions, and thank 
you very much. You did get a GPA at the end of high school, but 
you probably didn't have one for most of the years in-between. 
From kindergarten until about 10th or 11th grade, it's all 
about how are you doing in each subject and what are we going 
to do as a school to support you in improving. When you're 
looking at the continuous improvement, you have to know how 
people are doing in these different areas. There are some 
examples in my written testimony from the way in which Vermont 
is looking at this, where you see that the single summative 
score, which would identify a particular school as being in the 
bottom 5 percent, for example, misses the fact that several 
other schools have lower graduation rates or lower math 
performance that will not necessarily get attended to if only 
that one school is identified.
    The law does not require that we identify exactly 5 
percent. It requires that a State identifies at least 5 
percent. So the question is how do you go about doing that? 
California had an academic performance index before NCLB. We 
used that single summative score for years and years and years, 
and there were things underneath it, and they were reported. 
But what ended up happening, as Commissioner Pruitt mentioned, 
is that people were spending all their time trying to game the 
single summative score.
    Take the GPA, for example. If I really want to hide GPA, 
I'm not going to take that really hard class because it might 
give me a B instead of an A. I'm going to game the GPA. And 
some people, when they're focused on that, that happens, and we 
saw that in many States, that gaming the single summative score 
overtook making progress on each of the indicators.
    Senator Murphy. But let's say you had three indicators. Why 
wouldn't that same tendency play out with the indicators? Why 
would it only play out with a summative score?
    Ms. Darling-Hammond. Let's say we have six indicators, 
because there are four required by the Federal Government. Most 
States have to add at least one more, and some are adding more. 
If you have a continuous improvement system, what you might 
want to do is identify, as we're talking about in California 
and some other States, the schools that are low performing and 
not improving, to your point about improvement, on each of 
those indicators, 5 percent of the schools, and then we're 
talking about just as your school might say you're going to get 
reading recovery because you're not doing well in reading, the 
schools that are struggling with English language learners will 
get a whole intervention with research and coaching and 
professional development and opportunities to work with other 
schools. If they're in that low-performing group, they will 
have to have access and will be involved in that intervention. 
Others might even opt in. But we're going to attend to the fact 
that they are not making progress there.
    We would miss a lot of those schools if we were just 
identifying the bottom 5 percent on a single summative score 
because they might be doing OK in some other areas, so they get 
above the line, and then they're not getting identified and 
supported. The same thing in each of the other areas.
    How do you identify that you've got at least 5 percent 
getting intensive intervention for the right things? You would 
say if you're low performing and not improving on four of the 
six, then you're going to get intensive intervention that's 
more like a SWAT team, in addition to the intervention you're 
getting for the need that you have, and that's the same way 
you'd think about improving children's experiences in schools 
as a teacher or a principal, and it's a much better way to 
ensure that everybody is working on continuous improvement. 
Subgroup performance doesn't get lost, and the area where you 
need the help gets attended to.
    In the old system, when you just had AYP, you made it or 
you didn't make it. A lot of the interventions that were 
prescribed for schools were completely inappropriate for the 
actual needs that they had because it was just you're in or 
you're out, and here's the standardized intervention we're 
going to give you. I think the States' experiences who have had 
a single summative score suggest that it distracted them from 
really focusing on the specific needs of the schools, and they 
can use decision rules that are consistent to identify at least 
5 percent of the schools that have the needs that the 
interventions would address.
    Senator Murphy. I thank you for the answers. I guess I 
don't think we give enough credit to school officials and to 
superintendents to be able to continue to pay attention to the 
underlying indicators even though they will have a score 
sitting on top of it. I'm not sure that I'm convinced that 
there won't be a tendency to game the indicators that sit down 
beneath, just like there might be a tendency to game the top 
line indicator, and ultimately I think you can probably walk 
and chew gum at the same time when it comes to both having a 
measurement of the overall school and having a measurement of 
these indicators.
    I worry that if you don't have a clear top-line indicator 
summative score, then the transparency of the determination of 
who gets stuck into the bottom 5 or bottom 10 percent gets a 
little muddled. I hear what you're saying, that you could make 
it clean, right? You could just decide that if you're not 
hitting measurements on four of the six, then you're in. But 
you could also make it really confusing as well, and it would 
be largely up to the State as to what they chose to be the mix 
of performance on those sub-indicators. So there could be 
States in which it's really clear how you get into that group, 
but then there could be States in which it's really not clear 
how you get in, and that's where I worry that it becomes a 
little bit difficult for parents and for policymakers to parse. 
But I appreciate your time, and I've gone way over.
    Thank you, Mr. Chair.
    Senator Paul. Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    I have two questions. I'll just ask them together, and you 
can decide which one each panelist would care to answer.
    One is that I'm hearing from folks at home in Rhode Island 
some concern about the timeframe that has been laid out for 
getting the new accountability system dashboards up and 
running. Getting that right is really at the heart of what the 
whole Every Student Succeeds Act is all about, so I'm 
interested in your thoughts on what you think an appropriate 
timeframe would be to work out that new accountability system.
    The second and sort of related point is that one of the 
reasons we took this step was to get rid of the scourge of 
testing of schools that was so badly deforming the behavior of 
schools in order to be successful on the tests. And one of the 
worst ways in which that deformation of our educational system 
took place was in curriculum being jettisoned over the side in 
schools that felt themselves at risk of the testing program so 
that the kids had nothing to learn except what the school was 
going to be tested on when the tests came.
    For us, one of the measures of the success of this Act is 
going to be how quickly curriculum can grow back in these 
schools, and I'd be interested in your assessment of what 
good--we don't want to add more control, we don't want to add 
more regulation. You guys have enough of that nonsense all over 
you in this area already. But what would be the best ways to 
measure the success of returning curriculum to these schools 
that had jettisoned so much of it to make the tests?
    Those are the two, timeframe on dashboards and measuring 
the return of curriculum without burdening schools.
    Mr. Pruitt. I guess if it's OK, I'll take the first crack. 
The timeline that Chairman Alexander laid out earlier with us, 
being able to work on the actual system in 2017-18, identifying 
new schools the next year, would be a fantastic opportunity for 
us. The way the current regs are, basically you would be 
overlapping two systems. We in Kentucky have actually seen 
that. As a result, we had two schools that entered into 
priority status at the end of our last accountability system, 
and now in our current accountability system, because it takes 
3 years to come off that list, we have two schools that are 
simultaneously in our top 5 and bottom 5 percent. It creates a 
lot of distrust in the system.
    Giving us that extra time will allow us to model data. It 
will allow us to really dive into the system to make sure that 
what we have really measures what we want it to measure and 
builds a lot of trust.
    Senator Whitehouse. Does anybody disagree with that, or 
does Dr. Pruitt speak for the panel?
    Ms. Pletnick. As a superintendent, we were talking about 
that same kind of difficulty. If we move too quickly, actually 
we'll be forced to use NCLB data. So these schools will be 
labeled as failing under an old system, versus having that time 
to transition to the new system.
    Senator Whitehouse. It sounds like it's unanimous that a 
little bit more time would be good. I see all the heads 
nodding, for the record. OK.
    The next question is what would be the best way for this 
committee, without seeking to add burdens or encouraging the 
U.S. Department of Education to add burdens, a tendency that 
seems rather strong in that department, to get a sense of the 
resurgence of curriculum in these schools that had been 
deprived of so much curriculum?
    Ms. Darling-Hammond. I think there are a couple of ways in 
which we can encourage the return of rich curriculum into our 
schools. As you know, under the earlier era, the State tests 
became not only more plentiful but lower in quality, much more 
multiple choice assessment rather than open-ended and a variety 
of ways to show what you know. Rand Corporation did a study 
that found that only 2 percent of the items on the best State 
tests were higher-order thinking skills in math, 98 percent 
low-level rote skills.
    The rest of the world has been moving on to develop richer 
assessments that are more focused on 21st century skills. One 
thing in the law is the opportunity for the innovative pilot 
assessments that will--some seven States will have access to 
initially, and then three more. Hopefully that will be 
regulated in a way that States are encouraged to really broaden 
the conception of curriculum that is aimed at thinking and 
problem-solving and measuring those things so that other States 
can take that up. That will be an area to be mindful about and 
encouraging of.
    There's also more room in the law for innovative 
assessments outside the pilot space, and again how that gets 
both regulated and implemented could allow States to really 
move from rote learning to much more ambitious and 
intellectually challenging learning.
    In addition, these additional indicators after the first 
four that are federally required in some States are taking up 
ways to look at a full, rich curriculum. Are kids getting 
access? We have this as an indicator for our State 
accountability in California for science and history and all of 
the content areas that they need.
    Senator Whitehouse. Music, arts. Yes.
    Ms. Darling-Hammond. Yes, which disappeared in a lot of 
schools. Also, are kids getting access in high school or are 
they completing international baccalaureate or AP or dual 
credit courses? Are they getting a college preparatory or a 
high-quality career technical sequence? All of those--actually, 
many States are looking to put those in the accountability 
system because we know that ultimately that will drive 
performance. Research shows that that's one of the most 
powerful drivers of ultimate skills, and those have to count. 
Right now, the regulations would make any of those additional 
indicators fairly meaningless in the accountability 
determinations because they can't improve a school's rating, 
they can only bring it down.
    I think that allowing room for the measurement of higher-
order thinking skills and curriculum that is rich and powerful 
will also help schools make that transition as they hopefully 
spend their title II dollars to do the professional development 
that will also be needed.
    Senator Whitehouse. I'm over my time. I thank you for your 
courtesy.
    Senator Paul. The great thing about being the acting 
chairman is I can take the prerogative of asking an additional 
question, and you're welcome, Senator Whitehouse, to do so as 
well. But I have a question.
    I'm a bit of a contrarian when it comes to education. I 
went through a lot of the educational system--public schools, 
private schools, graduate degrees, doctorate. But what we get 
bogged down in is we're talking about accountability standards, 
assessments, measuring. We're talking about how we're measuring 
whether we're doing a good job, but I don't think anything 
we've talked about, other than just a little bit of this rich 
curriculum that I hear, almost nothing we've talked about today 
is how do we go from being 25th in the world to 1st in the 
world again.
    We have to have measurements, but I kind of go crazy with 
all the measurements, whether they're Federal or State. I'd 
rather have them State. Whether they're State or local, I'd 
rather have them local. But those really aren't making any kids 
smarter. This is how we're measuring our success. How do we get 
more success?
    I'd like to propose something, and this is something that 
excites me, and this is the concept of the extraordinary 
teacher. I think this is something where we could take our 
education to another level if we utilized it.
    We have the Internet. We give all our kids smart phones, 
smart tablets, and we think they're going to get smart with a 
smart tablet. I think they'll get smart if we connect them to a 
smart person.
    What I would propose is an extraordinary teacher program 
such that we pick the thousand best teachers maybe in the 
country, or maybe in the world. We become sort of like the NFL 
or the NBA of teachers, and they teach everybody. So instead of 
having a classroom of 15 kids in a classroom, we have a million 
kids in the classroom. What I mean by that is if Sal Khan is 
the best teacher or explainer of physics problems, we have him 
teach everybody. That still means you have a teacher in the 
classroom who reinforces that. But why wouldn't you want to go 
get a lecture from the person who can explain calculus better 
than anybody in the world and can apply it to everyday life and 
who can say why it would be exciting to know calculus, because 
you can be an engineer that works in NASA or does this, and 
we're going to work on a problem on jet fuel that's needed and 
parabolic curves of how the rockets are launched, et cetera.
    But you would get that by beaming these people in and not 
being stuck with just your local set of teachers, who aren't 
bad people, but everybody knows, like in my kid's high school, 
there's a man and a woman who are extraordinary. Everybody knew 
they were extraordinary. They were both teachers. They came 
before school, they stayed after school. They were just 
amazing. Pay them more, but have them teach all of the kids in 
Kentucky, not just the kids in that one high school for that 
one class. And maybe it's one area within that one class that 
they're the best at teaching and they specialize in that. You 
beam their lectures to everybody in Kentucky, or maybe 
everybody in the country.
    Above and beyond that, if the extraordinary teacher idea 
was a good idea, then maybe the people who are in college that 
want to be teachers, when they do their classroom teaching, 
let's only put them in extraordinary teacher classes. Everybody 
knows these people are out there, and sometimes we lose them to 
other parts of business because we don't pay them enough.
    One is the concept of having an extraordinary teacher 
program, having them teach beyond the walls of their school, 
connecting us. Are we doing any of that? Do you like the idea? 
And then the second question would be should we train our 
teachers not just in any old teacher's classroom but in an 
extraordinary teacher classroom, and do we do any of that?
    Since I'm from Kentucky, we'll start with Dr. Pruitt.
    Mr. Pruitt. Thank you. Thank you for the question. It's a 
great question.
    A lot of what we're looking at with this new system is to 
start to develop a collaborative nature within Kentucky. That's 
one of the reasons why I've been fairly critical of the new 
regs, because I felt like when you put people into that 
summative score, why am I going to share? Because if I share, 
you're going to beat me. Whereas if you actually reward people 
for working together, you can actually do things like expand 
the purview of those great teachers.
    If District A has a program that is fantastic, but District 
B does not, having those two districts actually come together 
to work together is actually something that I do hope we can 
really promote within our new system, that we do allow people 
to get outside of their classroom, that we do expose more 
students to our great teachers, but also to great programs, 
especially around the areas of career and technical education.
    As to the second, I think that the best thing we could do 
for our pre-service teachers is put them in an incredible 
teacher's classroom who is fired up, who is passionate about 
what they're doing, who understands that a good teacher learns 
continuously.
    Senator Paul. Does anybody know, are we doing any of that 
around the country? Let's start with Dr. Darling-Hammond.
    Ms. Darling-Hammond. We are doing some of that. One program 
that does that is the residency model, which is funded under 
the Teacher Quality Partnership grants federally, and some 
States have put money into it. What it does is it says, 
particularly in high-needs communities, urban and rural 
schools, you're going to study under the wing of the very best 
expert teachers we have who know how to teach our kids right 
here in this community for a full year as an apprentice while 
you're working in the university courses that are connected up 
to get you credentialed and get your Master's degree. District 
and Federal funds, sometimes some State funds pay for that, and 
then the resident owes that district 3 or 4 years of service in 
high-needs schools in that community.
    The outcomes are very strong, very high ratings for these 
teachers who are trained by the best teachers in those 
districts, and very high retention rates in these high-needs 
communities. Some university programs have also moved in the 
direction of this model school where you get the very best 
teachers and you make that tight connection.
    There are some places with career ladders, where teachers 
who are very expert, like the two that you described in that 
school, can move up a career ladder, and some of their time and 
some compensation is attached to this, is really spent being a 
mentor and a coach for other teachers so that they get this.
    Finally the distance learning kind of idea. Sal Khan is a 
friend of mine, and I'm very appreciative of the work that he 
does. I think some people are bringing that in. Of course, you 
need teachers on the ground too who can work with kids, because 
every kid learns differently, and the lecture that works for 
one kid may or may not work for everyone. Using that expertise, 
bringing it in, and then having teachers learn how to work with 
kids around the other----
    Senator Paul. One other thing I would add to the 
extraordinary teacher concept is to bring people into the 
school system who are not teachers for lectures. You could 
bring them in remotely or physically. For example, I always got 
the feeling as a physician, nobody wanted to hear from me in 
the public schools because I don't have a teaching degree, 
whereas I think it should be the opposite. You should have 
physicians, physicists, great innovators in our society, 
computer technology, coming in, exciting the kids, giving a 
lecture, giving one lecture. It doesn't mean they become the 
teacher, but who wouldn't want to have these extraordinary, 
successful people outside of teaching come in also and help 
with the teaching?
    Ms. Darling-Hammond. There are some districts that are 
really taking advantage of that. I think it's less prominent 
than it could be as a tool and a resource for schools.
    Ms. Pletnick. I can give an example. In our district, we're 
doing just that. We're fortunate because we have five major 
retirement communities right in our backyard. We have retired 
engineers, we have retired physicians, and they come in and 
actually work side by side with our students, not only our high 
school through CTE, but actually in our elementary schools, in 
our STEM programs. They are there adding their expertise.
    In addition to that, the students really learn, then, from 
them how this is applied in the real world. It makes sense.
    The other thing we're doing in our district we call Your 
Call, Your Community of Leaders and Learners. We don't want to 
be losing our expert teachers from the classroom. We don't want 
them to believe that the only place they can be experts and 
leaders is when they leave and go into administration. They 
have complete control over their professional development. They 
adopt a problem of practice, and then have to work collegially 
to solve that. Through that, we're identifying those teacher 
leaders who others can learn from, and it really provides that 
ability for those folks to have a voice in what happens, but 
also to feel appreciated as they lead and learn.
    Senator Paul. Thank you.
    Ms. Welcher.
    Ms. Harris Welcher. Senator, your idea I think is quite 
intriguing, and I think at scale certainly could be possible 
given the experience that I've had of extending the impact of 
great teachers. Much of what you're saying is exactly what we 
did at Ranson IB Middle School. We looked at who were our most 
effective teachers, and we said you've got this, you know how 
to move students, and you also know how to teach other 
teachers, so we're going to give you a greater responsibility 
to own that success. While we didn't expand it outside of our 
school building, we did that model exactly. We used blended 
learning. We gave one person who was an expert teacher, like 
Ovi Miles, the responsibility for all of science and had 350 
students that he was responsible for, and ultimately ended up 
with the highest growth in our entire district.
    It's absolutely possible. I think your idea of placing our 
most novice teachers and those who want to go into teaching 
with the most effective teachers is absolutely necessary. When 
you're a first-year teacher, you are literally just mimicking 
what you see. We want our beginning teachers to mimic the best 
so that our students can grow better faster.
    Senator Paul. Thank you all for coming. That's my plea to 
you as educators, and also to those across the country. Let's 
not get lost in measuring our success that we forget that we're 
trying to create success, and that's also what we discussed a 
little bit in the rules today, that we don't want the rules to 
be so overbearing in how we measure our success or how we test 
our children that we're losing sight that we need a richer 
curriculum. Grades shouldn't overwhelm everything. Measurement 
of grades and measurement of teachers and measurement of 
schools shouldn't distract us from the purpose of getting the 
best education for our kids.
    Thank you all.
    The hearing record will remain open for 10 business days.
    We're going to recess for 5 minutes. I believe the Chairman 
is on his way back.
    [Recess.]
    The Chairman [presiding]. The hearing will come to order.
    Thanks to the witnesses for your patience. We worked pretty 
hard for 2 or 3 years on legislation involving opioid abuse, 
and today was the signing of that. I know I missed some 
interesting comments, but let me take advantage of this 
opportunity to ask a few more questions, if that's all right 
with you.
    Let's go back to the timeline we talked about, because 
there seemed to be general agreement about that. And let's talk 
about, in the different States, what we mean when we say 
accountability system. What I said in my questioning was that 
my hope is, and I believe this is what Secretary King said, is 
that Kentucky, say, California, North Carolina, Arizona, would 
develop its accountability system during the school year coming 
up and then implement it in the following year, and in the 
meantime continue to work with the schools already identified 
as having some problems. States do that in different ways now. 
Some do that every 3 years, some do it every year, that sort of 
thing.
    Dr. Pruitt, the whole heart of the law is that we move the 
accountability system from Washington to Kentucky and North 
Carolina and California and Tennessee, all the States, but 
people don't always know what we mean when we say 
accountability system. So could you describe briefly but with 
some specifics what you're doing in Kentucky to create an 
accountability system? Put it on that timeline we discussed and 
let's see how does it work.
    Mr. Pruitt. Sure. We have to start with the idea that it is 
a system. I have a background in sciences, so I have a tendency 
to think in terms of systems, and when you evaluate a system, 
you break it into its parts and you reintegrate it.
    We have five groups that are currently working on pieces of 
that system--assessment, school improvement, college and career 
readiness. Two that I think are a little bit unique are 
opportunity and access, because we want to move away from it 
being just about test scores, and innovation, how we can really 
promote innovation within our districts.
    We have a committee that will take those findings and 
integrate that into a system that actually works like a system. 
So as one thing affects another part of a system, we evaluate 
it.
    The Chairman. What's your schedule for doing that? What 
would you like for it to be?
    Mr. Pruitt. What I'd like for it to be is to have all of 
this year to really get into that, work at it, and actually be 
able to model the data.
    The Chairman. All of this calendar year or all of this 
school year?
    Mr. Pruitt. I would love all of this coming school year to 
be able to do it. As it stands, because of how the regulatory 
process works in Kentucky, we have to be finished by December 
because of the requirements of when we would have to submit it 
to the Federal Government, because I have to get through my 
State board and through our regulatory process before I can 
actually submit it. So we're operating on a ridiculously short 
timeline.
    The Chairman. So if you had to do it during the upcoming 
school year you would have to, in effect, do it before 
December, which is 6 months from now. Would that limit the 
number of Kentuckians that you could consult about different 
approaches for those five areas?
    Mr. Pruitt. I believe so. Not only would it limit the 
number of Kentuckians, it would limit our ability to actually 
put it through testing, through modeling what it might look 
like to actually identify issues. I have a specific group 
called the consequential group review team, that's dedicated to 
finding unintended consequences of the system. And if we had 
more time, we could actually really dig into that to make sure 
that--what the accountability system does, or at least in my 
opinion, is it drives adults to make good decisions for kids 
and not decisions about adults.
    The Chairman. If we had the schedule that Dr. King 
indicated he might entertain and that I recommended, I 
suggested, when would you anticipate you would finish your work 
and submit your plan?
    Mr. Pruitt. It would be great if we could have this entire 
academic year, fiscal year, if you will.
    The Chairman. Would that be until June 2017?
    Mr. Pruitt. Correct, and then to be able to submit it to 
the Federal Government at the end of the summer, and then be 
able to continue on in the following school year, identifying 
our first group of low-performing schools in the following 
fall.
    The Chairman. In the year that begins in 2018?
    Mr. Pruitt. Correct. Yes, sir.
    The Chairman. Dr. Hammond, you were talking about what 
California is doing. California is a pretty big place. It also 
has a reputation as an innovative place. Californians like to 
say their good ideas, or bad ideas sometimes, spill across the 
country. How does this timeline affect what's happening in 
California? And please give me some dates so I can get an idea 
of what a short timeline would do and what a longer timeline 
would do in terms of encouraging innovation and consultation or 
whatever else you think is important.
    Ms. Darling-Hammond. I think the basic outline is very 
similar to what Dr. Pruitt just described. In addition to 
figuring out what indicators we want to have in the 
accountability system, you've then got to sometimes build a 
data set to allow for that indicator. Just this week I think 
the board has adopted the idea of a college and career 
readiness index, which will have many things in it. Well, you 
have to build the data set for that. You have to model it, see 
how it would work out.
    The Chairman. How many schools are there in California?
    Ms. Darling-Hammond. Oh, my. There are 1,000 districts, and 
then there are lots of schools. I don't know the exact number, 
but it's large, 6 million kids, and it's a lot to model. We 
have counties involved as well that are part of the 
accountability improvement structure. Deciding on the 
indicators, modeling the data, building the data sets. Then, of 
course, you don't just want data; you want to use it, so you 
have to figure out how to have decision rules for deciding 
which schools will get which interventions and supports and 
assistance, but also what is your school improvement plan.
    All of those things have to be both vetted with 
stakeholders and then come through the State board, and there 
may be some legislation necessary at some point, depending--
because we have an accountability law, and then you have to 
look at the new law, the new ideas and say does it fit with the 
old law, do we have to amend the old law. All of that needs to 
take place in this coming school year, 2016-17, at the end of 
which you could be ready to say, OK, we know what we're about 
to do, we have gotten through all of our processes, and at the 
beginning of 2017-18 we could start to collect the data that 
would allow us to fully implement the system, ideally in 2018-
19.
    The Chairman. So collect and then implement the following 
year.
    Ms. Darling-Hammond. Yes, still keeping supports going on 
with the schools that are already identified. We have both a 
State law and a Federal law for identifying schools in need of 
improvement.
    The Chairman. If you had to deal with a short timeline, the 
one that seemed to be required by the proposed accountability 
regulation, when would California have to finish its plan and 
submit it, would you guess?
    Ms. Darling-Hammond. If it had to be submitted to be 
implemented in the fall, we'd be talking about just in the next 
few months settling on everything. What you'd lose, in addition 
to the stakeholder opportunities, is the opportunity to 
actually add new indicators to the system, because you wouldn't 
have time to build the data set to incorporate the new 
indicators, and you'd also lose the confidence that when you 
implemented it, it would work well, because you wouldn't have 
had time to test it to see if, in fact, things play out in a 
reasonable way.
    The question has come up many times about the 5 percent of 
schools, or the at least 5 percent of schools. That kind of 
thing needs to be understood and modeled, and you need to 
figure all of those components out. We'd basically either be 
pushed into doing what we did in the past rather than adding 
the new components that people have been really working hard to 
advocate for and figure out, or doing it on the fly and sort of 
crossing fingers and seeing what happens, and you could imagine 
with a State the size of California that you'd have some 
problems.
    The Chairman. In your institute, you look at many States. 
My impression is that States work together first to develop 
common standards, then they work together to develop a few 
tests, and more recently States have been working on so-called 
accountability systems, working together, borrowing ideas from 
one another. So this next year-and-a-half provides an 
opportunity to put all of that work and knowledge in place in 
an innovative way, does it not?
    Ms. Darling-Hammond. It does. The Council of Chief State 
School Officers and other groups have brought States together. 
There is a lot of State sharing and learning going on. We've 
done a couple of reports from the Learning Policy Institute 
documenting the progress that States are making. It would also 
short-circuit that learning process and that sharing process 
that's going on.
    The Chairman. Dr. Pletnick, what about Arizona? What's the 
schedule for--what will you be doing with an accountability 
system in Arizona, and what would the difference be between the 
short timeline and the longer timeline?
    Ms. Pletnick. In Arizona we were very dependent on that 
single test for our accountability system. We basically sliced 
and diced that test score a million different ways to come up 
with an A through F system. We have to go back to redefining. 
For us right now, we want to be looking at multiple indicators. 
We know that college and career indicators are very important 
if we want to really accomplish what we say we do, and that's 
graduate every child college and career ready.
    That's the piece that we've been working on. In fact, the 
State has gone out for an RFI for information. They have 
convened some committees of stakeholders to talk about it. 
They're going out doing listening tours. Our Governor has a new 
Office of Education, and they're doing research. All of those 
groups are still in that redefining.
    Next we have to go to redesign. And again, much as what has 
already been indicated, we want to make sure we are selecting 
the right indicators and that we can collect that information. 
So that takes a great deal of redesign, and also really 
building those systems that will allow us to do that. That's 
the technology side of the house. And then we can re-imagine, 
which means then we get the product. You cannot do that in 3 
months. If you're going to take that short period of time, 
we're going to have a lot of errors. We did that when we moved 
to a new assessment, and we're still trying to figure out how 
to clean up the mess we created because we moved too quickly.
    We don't want to do that with an accountability system 
because it impacts trust with our community. It also then gives 
you those results that don't help the schools that really need 
that help because you don't have a true system that's 
indicating where the strengths and weaknesses are.
    The Chairman. My impression, and you made some allusion to 
this, is that I'm very much for higher standards, and when I 
was Governor of Tennessee we became the first State to pay 
teachers more for teaching well, over the opposition of a lot 
of people. But what I noticed--and I would concede that some of 
the mandates under the waiver in No Child Left Behind moved us 
in a good direction. But they also created a massive backlash 
on standards and on teacher evaluation, which in a way set us 
back. I mean, you alluded to that. I mean, most States were 
adopting Common Core, some version of it, until they found out 
Washington was making them do it. Then they all got mad about 
it. We spent the last 2 or 3 years having a massive political 
brawl over Common Core.
    It seems to me that if we were to create new accountability 
systems and cram them down the throats of schools and teachers 
and parents, that we might create the same sort of backlash 
because there wouldn't be the opportunity to buy into whatever 
you're doing. So you either cram it down their throats and run 
the risk of a backlash or you don't make any changes at all and 
you just do what you were already doing.
    Ms. Pletnick. That's exactly what my fear is. After 40 
years in education, what I have found is that when I bring the 
stakeholders to the table and I ask for those ideas, we come up 
with the best solutions because we see it from all 
perspectives. However, if it's top-down, there is no buy-in, 
and so automatically there is that question about is this the 
right thing, or an indication we could have done it better. But 
by bringing people around the table, I think we're going to 
find the best solution and we're going to have the buy-in.
    I will tell you, with the standards, I ended up spending a 
lot of time as a superintendent in my community being asked to 
debate whether we should or we shouldn't, answering questions. 
There was really so much misinformation about what was or was 
not happening in the school, and no matter where it was 
happening across the Nation, somehow it became are you doing 
this in this school. It was such a waste of our resources and 
our energy, and we have so much work to do that I don't want to 
go back to that place.
    I think we really have to take the time to get it right, 
build that trust, build that buy-in, and together we are going 
to be able to support each and every child. I no longer want to 
talk about all children. That's not important to me. It's each 
and every child, and we have an opportunity, and we have 
resources that we can utilize now, including technology that 
could help us with these metrics, but we have to have the time 
to build it.
    The Chairman. Ms. Welcher, what about North Carolina? What 
about building an accountability system there?
    Ms. Harris Welcher. Yes, absolutely. I think in terms of 
the timeline, I love what was said around trying to redefine 
then redesign. I often think about this idea of slowing down to 
speed up. At the end of the day, school leaders, building 
school leaders, they're going to be the ones who are going to 
have to re-imagine and implement.
    In my short years in education, I have been a part of way 
too many new ideas that were just thrown at me and told go do 
it, and in all cases it just didn't survive. It didn't live and 
it was not deeply implemented with fidelity.
    The reality of it is, as a school leader you actually start 
planning your next school year in January. You start thinking 
and assessing, and you know what has gone well, you know what's 
not gone well. You start thinking about that. If we expect 
schools and districts and States to start implementing 
something in 2017-2018, I can tell you right now we're not 
going to get a really strong outcome and result. We need time 
for the States to get it right, for our district 
superintendents to get it right, and then to filter that down 
to the school leaders and the school buildings so that they 
feel comfortable and feel very confident in what they're about 
to do for kids.
    If not, we're going to have folks going through the 
motions, and we just don't have the time to do that for our 
children.
    The Chairman. Thank you very much. Well, you've got until 
August the 1st to send those comments to the Secretary. He has 
indicated he may agree with you, and so I'm going to urge him, 
if he does, to go ahead and let everybody know so you can make 
your plans.
    There are lots of different laws that are passed in 
Congress, and some are better than others. Some are passed in 
the middle of the night in a snowstorm or sometime, and they're 
not carefully read and not carefully structured, and when 
they're implemented people are wondering how in the world, what 
does this mean.
    This law is not perfect, but it was carefully considered 
over a long period of time in the open, with lots of 
participation by lots of people, and it went through the entire 
process of both bodies of Congress and the House, and I think 
it's pretty well crafted, not just good policy but pretty well 
crafted. In other words, we meant what we said. So it has the 
promise of creating stability in Federal elementary and 
secondary education policy so, Ms. Welcher, you don't have that 
``here's the big new idea every year'' and you're in your 
school and say where does that come from, I was just working on 
the one they gave me last year.
    Hopefully, you have a new law that might settle things for 
a decade or so, and then States will have time to develop their 
new plans for their title 1 and title 2 Federal dollars, and in 
doing that those plans will stay in place for a decade or so, 
or until they're significantly changed. They don't have to be 
changed every year. And then the superintendent and the school 
leaders can say, OK, that takes care of that, and now let's go 
to work and do our job, maybe less uncertainty, less politics, 
more education.
    Let me go back to the summative rating question. That just 
kind of dropped from the sky because those words aren't in the 
law. In fact, the law says that States develop accountability 
systems that measure and differentiate all public schools based 
upon a series of indicators beyond just the federally required 
math and reading tests. The law says that we envision an 
accountability system that is not based on a single test at the 
end of the year.
    If you wanted to do that, you could do that. We're also 
trying to say if you want Common Core, you can have Common 
Core. If you don't, you can't. If you want this, you can have 
that, or if you don't. And the law also says that the Secretary 
``is prohibited from prescribing the specific methodology used 
by States to meaningfully differentiate or identify schools.''
    Dr. Pletnick, would you consider the words ``single 
summative score'' to be a specific methodology?
    Ms. Pletnick. I believe it drives you to have to, again, 
work within a framework that is going to, unfortunately, cause 
many States to think more like the NCLB mandates and 
environment than it would under ESSA, because if I've already 
determined what that answer has to be, then I've limited the 
possibilities of what I could build in order to comply with 
that outcome that's being mandated. My fear is by putting that 
limitation there, then we're going to limit the innovation.
    When I think about multiple indicators, I know we all want 
to go back to the traditional way, for instance, of doing 
report cards, with one single score. But if my child receives 
an A in reading, I don't really know whether there might be 
comprehension issues or maybe there's something with their 
vocabulary. It doesn't tell me enough. I think when we limit 
ourselves and say that has to be the outcome, we're also 
limiting what the possibilities are. And with technology, the 
new ways that we can use that to work with metrics, I don't 
think that we need to limit ourselves to that summative score.
    The Chairman. We'll wind this up. Dr. Pruitt, I know you 
have a meeting at 11:30 that I want you to be able to go to. 
Would you like to be able to say anything and then leave after 
that, and then I'll wind up the hearing in the next 5 or 10 
minutes after you leave?
    Mr. Pruitt. Thank you so much. I thank you for having me, 
for allowing us to come in and really talk about what is the 
most important issue in K-12 education today. We have an 
incredible opportunity ahead of us. I believe with regard to 
the summative score, there is a significant amount of research 
out there that shows that even at the student level, when 
grades are put on writing assignments, that actually it doesn't 
lead to the improvement that they thought, as opposed to just 
giving good feedback.
    For us, we want to end with a system that we can be proud 
of that will drive adults toward making good decisions for 
students, and I believe that the way you envisioned this law 
allows that to happen, that we actually have something special 
that leads to each and every child having opportunity that they 
would not have had to not just graduate high school but 
actually be contributors to our society.
    I appreciate the time and effort that you've put into this 
law, and I appreciate the opportunity to have come and shared 
my concerns.
    The Chairman. Thank you, and the person you're about to see 
played a major role in the passage of the law, so you can tell 
him we're up here trying to implement it the way it was 
written.
    You're free to go, Dr. Pruitt, if you'd like to do that.
    Mr. Pruitt. Thank you.
    The Chairman. Dr. Darling-Hammond, I just have a couple 
more questions. I want to go back to the summative rating. It's 
pretty clear to me it's not in the law, and it's a little, just 
to be blunt about it, it's kind of a tricky maneuver. If the 
law says you're prohibited from doing X, and then the 
regulation says we're going to require you to do something that 
results in X, that's a little maneuver they use over at the 
Department of Education to get around specific prohibitions. 
Specific prohibitions are very unusual in Federal law, and the 
only reason they're in there is to keep people from doing 
things that Congress has agreed on.
    But let's go back to the summative rating. Maybe that's 
just a mistake by the Department. Maybe they didn't think it 
through. But let's talk about what we mean by summative rating. 
A summative rating to me means something like Florida had or 
New York City had, which means the whole school is A to F.
    Dr. Hammond, am I right about that? What does single 
summative rating mean to you?
    Ms. Darling-Hammond. It conjures something along a single 
scale, like A through F or you got a 92 versus a 43, some kind 
of a numerical scale. It may be that really what the 
regulations ought to focus on is a rational way to make a 
summative decision. You do have to make a summative decision 
about which schools are going to get identified for additional 
assistance. But a single summative rating does seem to connote 
a single scale.
    The challenge with doing it that way is that, like kids, 
you may have a child who has an A in reading but they're really 
struggling in math, and you want to understand that you're 
going to give them extra help in math. In an improvement and 
accountability mindset, we really want to be sure that you 
don't just say you're a 42 or you're a C-minus or whatever that 
is, that you actually say if you're really struggling and have 
low graduation rates or have that for a subgroup of kids, we 
can identify you to be getting assistance in that area, and we 
can add those up in a way that's more focused on the actual 
help you need than just saying you're in or out of that 5 
percent group.
    The Chairman. Is California far enough along? The law says 
you would develop an accountability system that annually 
measures and differentiates all public schools based upon a 
series of indicators. What does that mean in California?
    Ms. Darling-Hammond. We're still debating the final 
versions, and they're all getting refined, as you've described. 
But there will probably be six or seven indicators, and on each 
of them there will be a scale, and there will be some way of 
categorizing. Right now we have five dimensions or five areas 
where we're looking at whether a school is high or medium or 
low and whether they're improving or declining or staying the 
same. So on each indicator you find that out. There's a little 
picture of it in my written testimony if people want to look at 
it. After you've done that, anyone who is low and not improving 
on any indicator would be identified, even if they wouldn't 
have been in the bottom 5 percent of a single summative score. 
They would be identified to get intensive assistance, and then 
you could count up--for example, you could have a decision rule 
that says if you are in the low and not improving group on four 
of the six, then you're going to get a kind of help that is 
more comprehensive and intensive.
    Our view has been that if it's at least 5 percent of the 
schools that are definitely low and not improving on those 
indicators, then we can organize the assistance indicator by 
indicator with those summative ratings that have to do on each 
indicator with whether they're high, low, in-between, improving 
or not improving.
    There are ways to think about that that allow you to really 
say, as the teacher would say, you really are going to need 
that extra help in reading, and we're going to make sure you 
get it even if you didn't fall into the bottom 5 percent on 
everything, and you're going to get help in math if you need 
it, and some people are going to get help in a lot of areas 
with a very special approach.
    There will be summative ratings on each indicator. There 
will be a way to see where every school is, and there's also a 
way to go underneath and look at the subgroups of students on 
those, but then to make the decision about how and what 
assistance they get and whether they get it in a way that 
doesn't just roll it up and lose all that good information.
    The Chairman. I'll ask my last question about standards. We 
had some pretty good differences of opinion, as you could 
imagine, when we wrote this law, so we voted, and some things 
passed and some things didn't. For example, I wanted to let 
States have the option to take most of their Federal dollars 
and turn them into scholarships for low-income children and 
follow those children to whatever school the local attendance 
policy put them in. But that only got 43 votes, and it needed 
60. Some Senators would have liked to have had more Federal 
mandates about various things, but the major legislation on 
that got 43 or 44 votes and it needed 60. So those aren't in 
the law, and they're not supposed to be in the regulation.
    Something about which there was almost no disagreement--I 
don't want to overstate it, but I'm trying to think if any of 
my Democratic colleagues ever disagreed with this. I don't 
think they did. We did not want the U.S. Department of 
Education defining for States what their academic standards 
were to be, period, and my thinking on that was what I said a 
little earlier. I thought the States were doing a pretty good 
job of working together for the last 20 years of trying to 
create higher standards. Some States, including my own, were 
using lower standards, and we had a Governor, a Democratic 
Governor named Bredesen, who blew the whistle on that, so 
Tennessee actually adopted Common Core, but it did it itself, 
it did it itself.
    There was almost unanimous agreement that the U.S. 
Department of Education, that not only did we not authorize the 
Secretary to set State standards, we prohibited it from doing 
so in about five different places in the law.
    Arizona, for example, Dr. Pletnick, no longer has to 
demonstrate that you have challenging standards. All you have 
to do is assure the Secretary that you adopted those standards. 
That's what the law says. What does that mean to you?
    Ms. Pletnick. For me, it means that we have the flexibility 
at the State and local level to develop the standards that best 
reflect what we believe will prepare students for college and 
career, and that in so doing we would have to have that set of 
standards in place and all of our districts assuring that 
they're using those standards as the framework for the 
curriculum. It does not mean to me that we would have to send 
them anywhere. I would hope that we would not have to send them 
somewhere and say, yes, we agree or, no, we reject these, 
because then we've just discounted the voices of our entire 
community who have input into that.
    The other thing is by having our assessments in place, then 
I think we are assuring that we have those rigorous standards, 
because if our assessments are aligned to those, and they must 
be, then I don't think we need to go beyond that in terms of 
what we have to assure.
    The Chairman. The regulation says, the proposed regulation, 
that a State must ``provide evidence at such time and in such 
manner specified by the Secretary that it has adopted 
standards.'' What does that mean to you?
    Ms. Pletnick. That means to me we're submitting something 
for approval or for it to be rejected, because if you're given 
the timeframe that you have to do that and you're going to have 
to have that approval, then to me that again still has control 
over what's done at the local level. I, quite frankly, believed 
that we should have been working on our Common Core standards 
to improve them as soon as we began to work with them, because 
they don't reflect everything that we need to do in school. But 
instead we spent all of this time arguing over whether they 
should be completely rejected or completely adopted. In my 
State, especially in my school, we're looking at not only 
knowledge but we're looking at skills and disposition that 
prepare students for the 21st century, and right now those 
standards need work in order to include them.
    The Chairman. I thank the four of you for your time and 
your expertise and for coming today. This has been very useful. 
There seems to be a unanimous judgment that the longer 
timeline, which is what I thought the law envisioned, would be 
the correct thing to do because it would allow States to 
consult with the largest number of stakeholders, carefully 
consider their new accountability systems, make whatever 
innovations they wished to make, and develop support and buy-in 
from the individual school leaders, and then everybody can 
settle down and try to implement that for a period of time.
    That especially is helpful, and I would urge you if you 
have other thoughts that you would like for the Secretary to 
have, that you've got the rest of this month to get those in. 
In the meantime, I hope that North Carolina and Kentucky and 
California and Arizona see this as a tremendous opportunity for 
innovation and showing other States and other school districts 
and parents everywhere that we know how to have higher 
standards and better teaching and real accountability State by 
State, community by community, and school by school. So it's 
very helpful to us in the process, and I thank you for your 
time.
    The hearing record will remain open for 10 business days. 
Members may submit additional information and questions for the 
record.
    Thank you for being here.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

             Response to Questions of Senator Murkowski by 
             Alison Harris Welcher and Gail Pletnick, Ed.D.

                         alison harris welcher
    Question. If you had the freedom to design a school accountability 
system for your State without any regulatory oversight by the U.S. 
Department of Education, what would that system look like? In broad 
strokes.
    Answer. Over the course of 4 years as principal of Ranson I.B. 
Middle School in Charlotte, NC, I led our team to move Ranson from a 
report card grade of ``D'' to ``C.'' Although a ``C'' rating doesn't 
sound like much to rave about, what that shift meant for kids is that 
we exceeded all of our growth targets and were in the top 25 schools in 
the State--the top 1 percent--on the growth composite index measure. 
Our students still weren't where they needed to be, but the truth is 
our growth shows that we were doing better work for kids--specifically 
our most vulnerable students who were far behind their peers--than many 
schools that received a higher grade. There is a real difference 
between maintaining excellence and building it.
    Therefore, in designing an accountability system that works for all 
schools, my top priority would be thoughtfully including measures of 
student growth in addition to performance.
    Ultimately, the purpose of our education system is to meet students 
where they are--whether they're three grade levels behind (like many of 
our students at Ranson and in similar schools across the country), at 
grade level, or above--and support their development. No matter their 
proficiency level, our job is to move students forward. That's called 
good pedagogy and that's what it takes to do right by all of our kids. 
I cannot emphasize this enough: educators making progress in the 
lowest-performing schools need support, encouragement, and recognition 
to keep up the momentum.
    I would also ensure the system includes multiple measures of school 
success, with a special focus on the most vulnerable and at-risk 
students.
    As educators, we are preparing students for college, career, and, 
for many, a life beyond the here-and-now of their current 
circumstances. It is critical that we define school success in relation 
to how well students are progressing toward college- and career-
readiness, which requires that we understand their mastery (and growth 
toward mastery) of subjects like reading and math as well as their 
access to civics, history, geography, literature, foreign languages, 
science, technology, engineering, music, drama, and art. The former are 
critical building blocks and the latter ensure our children have access 
to a well-rounded education in disciplines that reflect and prepare 
them for the careers in which many students will later work. Other 
data, such as rates of chronic absenteeism and information on 
disciplinary practices, can help provide a better picture of school 
culture. We also know that physical activity and social and emotional 
skills help our students lead happy, healthy lives, so an 
accountability system could include indicators, as appropriate, that 
assess such non-academic measures (e.g., related to student health and 
access to high-quality early learning opportunities) that are 
correlated with improving student achievement and other academic 
outcomes. And, ultimately, we need to know whether students demonstrate 
college- and career-readiness, including by looking at matriculation 
and completion rates for a wide range of postsecondary options 
(especially without the need for remediation).
    In our work to ensure all students have access to a high-quality 
education that inspires them and prepares them for success in college, 
career, or whatever their next step in life may be, we must pay special 
attention to groups of students who are not being served as well as 
they can and must be. It is critical that information on student 
performance and progress is disaggregated so we know how well our 
schools are serving different populations of students who have special 
educational needs, who have been historically underserved by our 
education system, and/or who are at-risk for educational failure. This 
information can help us celebrate success and identify areas where 
faster growth is needed or where we need to do more to support 
students' unique learning needs. To the extent possible, this 
information should be cross-tabulated so we know, for example, how our 
Black girls are doing or how well Hmong students perform relative to 
other Asian students and their peers of all races and ethnicities.
    The system must also provide data on the underlying conditions 
necessary for effective teaching and engaging learning.
    A strong accountability system holds educators responsible for 
effectively supporting all students, and it should also hold school 
system leaders and entire communities accountable for providing the 
resources--financial, personnel, technology, and advanced and well-
rounded coursework, among others--that enable student success. It is 
particularly important that we ensure there is an equitable 
distribution of effective teachers and leaders, including educators of 
color.
    By providing a more holistic picture of our students' school 
experience and a more detailed, multi-faceted snapshot of the 
underlying conditions necessary for effective teaching and engaging 
learning, we can more efficiently identify and address resource 
inequities that contribute to achievement and opportunity gaps.
    To make data understandable and actionable, the system would also 
need to include information and tools to effectively communicate 
progress.
    Obviously, I have struggled with whether our ``C'' grade really 
captures the great work happening at Ranson. But I cannot imagine 
having conversations with staff, students, and families without being 
able to somehow summarize our school's status.
    One idea that I find very promising is to consider rating schools 
by category rather than letter grade. In addition to highlighting the 
schools most in need of improvement (to help marshal community 
resources to support change), categories could also highlight lower-
performing schools that have made tremendous gains for students, 
celebrating those schools even though they may still be in the middle 
of transformation.
    If you look at the list of ``Reward'' schools in North Carolina, we 
see a set of outstanding schools, to be sure, yet only a handful are 
recognized for progress and not a single school was recognized solely 
for making gains. It would mean so much to educators, students, and 
families making progress in the highest-need schools if our leaders had 
the courage to publicly celebrate and put their stamp of approval on 
schools that are not yet high-performing, but that are closing gaps and 
making gains.
    Categories would need to be simple to understand (like report card 
grades), but could also be designed to provide a more accurate--if not 
entirely comprehensive--description of a school's status that didn't 
essentially rank them by performance (e.g., color categories or matrix 
analyses that lead to specific classifications). I understand such 
categories are already being used (e.g., the District of Columbia 
identifies ``Rising'' schools), so we can learn from their experience 
and figure out ways to make designations, which will never be perfect, 
even better.
    We would also need tools that help us communicate progress to a 
wide range of audiences. The tools must be radically transparent, yet 
also easily digestible for families and other stakeholders. 
Particularly as we move toward accountability frameworks based on 
multiple measures and report cards that include more information on the 
underlying conditions and resources necessary for effective teaching 
and engaging learning, it will be all the most important that we 
develop thoughtful methods for summarizing that information so it is 
clear and digestible for parents.
    I am a huge proponent of data transparency--I believe we owe it to 
ourselves and our family and community supporters to be clear about 
where we stand as a school in preparing every student for success. It's 
about accountability, yes, but it's also about building support to 
advocate for change, secure necessary resources, and bring parents and 
families into their child's education in new and deeper ways. This type 
of engagement--even or especially if it requires tough conversations 
about where we're not meeting our goals--is good for schools and it's 
good for kids.
    Though snapshot data on progress and performance from the current 
(or most recent) year is critical, for those of us working in low-
performing schools it is also incredibly valuable for us to be able to 
easily point to how an individual data point fits into a larger growth 
trajectory. Including select multi-year data on report cards or other 
tools would help.
    Finally, the accountability system should pair information on 
school performance and progress with a suite of resources tailored to 
student, educator, school, and community needs.
    All of the information and resources above should then be used to 
direct resources to where they're needed. Labeling schools and telling 
them they are not making the grade and failing to serve students is not 
an impetus for improving. We must ensure States develop systems that go 
beyond transparency to aggressively demand and support action. Even the 
best educators need help to transform underperforming schools, so 
accountability systems should include robust funding, technical 
assistance from experts, and ongoing professional development and other 
supports for schools identified for improvement.
    Note: While this question specifically asks about my vision for an 
accountability system without Federal oversight, we know that the 
Elementary and Secondary Education Act is fundamentally a civil rights 
law. As we move in what I see as a promising shift toward State, local, 
and school-level decisionmaking, we cannot forget that Federal laws 
have played a key role in advancing equity and justice in our education 
system and society. Despite our best efforts, Federal protections are 
still the last, best, or only hope for some of our country's most 
vulnerable students.
                          gail pletnick, ed.d.
    Question 1. Have you had the opportunity to review the Department's 
proposal to add a new priority for all of the Department's K-12 and 
postsecondary competitive grants? This priority would require all 
applicants to seek to increase schools' racial and socioeconomic 
diversity by investigating the barriers to diversity, changing school 
assignment policies, creating or expanding school choice, or changing 
how funds are allocated to schools. Clearly these options would be 
impossible for many of Alaska's rural communities and other rural areas 
of the Nation. If you have reviewed this proposed priority, what are 
your views, and do you anticipate submitting comments to the Department 
about it?
    Answer 1. I am aware of the competitive grant process and would 
like to first respond to this question by voicing my concern with 
utilizing a competitive process for programs designed to reduce the 
barriers faced by children from underserved populations. Competitive 
grants do not provide equitable opportunities for K-12 and 
postsecondary institutions to access the funding provided through such 
grants. The process and the resources it takes to complete the 
competitive grant applications often eliminate the institutions most in 
need of the resources those grant moneys provide. The amount of 
paperwork and red tape associated with a competitive grant may 
frustrate innovative educational systems, who, if given an opportunity, 
would utilize additional funding to contribute to solutions and best 
practices. Rural, smaller, and more isolated systems find it hard to 
participate in these competitive processes. Even mid-sized districts or 
postsecondary institutions find it too time consuming and often elect 
to concentrate their efforts elsewhere, even though the grants could be 
very beneficial to designing and/or implementing effective programs.
    A review of the outcomes from competitive grant initiatives, such 
as the Race To The Top, indicate that this approach did not 
consistently yield the results desired, especially in terms of programs 
being able to be replicated nationwide. I remain concerned that 
continued reliance on competitive allocation of Federal funds is not 
only inherently inequitable, it actually exacerbates the gap between 
the ``haves'' and the ``have nots'' and perpetuates a system of winners 
and losers. In a time where education is widely touted as the civil 
rights issue of this generation, and in a law like ESSA, where the role 
of the Federal Government is to help level the playing field for a 
historically disadvantaged population, competitive allocation is in 
absolute conflict of the stated purpose of truly addressing school and 
community needs, equity, and educational opportunity. I strongly urge 
that the limited resources available to support K-12 and postsecondary 
systems in the work of removing barriers related to racial and 
socioeconomic diversity, not be distributed through a competitive grant 
process that may create inequities in accessing funds.
    Additionally, I would offer points to consider regarding the impact 
of grants that require the applicants to investigate the barriers to 
diversity and find ways to address those barriers through strategies 
such as changing school assignment policies, creating or expanding 
school choice, or changing how funds are allocated to schools. Looking 
across our Nation, attempting to limit the way the individual needs of 
our unique school communities are addressed does not serve our students 
well and often creates impossible restrictions that impede rather than 
advance the work being done in schools. There is an important 
distinction between reaching ALL students through ``one size fits all'' 
compared to ``each and every'' student. While both approaches focus on 
ALL students, only the latter option ensures school districts are able 
to address the individual needs of our school communities and the 
students they serve.
    The work to address these issues looks very different in rural 
areas where school boundaries are not reported in single or even double 
digit miles, but are often described as boundaries with hundreds of 
miles. In turn, this type of work fits a different mold in a school 
located in a neighborhood in the center of a large city. Effective 
policies, the option of choice and the efficient use of funding to 
support students will, also, look very different in these two places. 
We must not lose focus of the educational goals of serving each and 
every student and finding ways to deliver personalized learning in 
order to effectively break down those barriers that impede student 
success. Students from all walks of life and diverse backgrounds must 
be prepared to succeed in an information-driven age of innovation. That 
is where time and money needs to be invested and not in one-size-fits-
all solutions framed by limitations that require those solutions to fit 
in prescribed areas that may or may not truly define the problem.

    Question 2. If you had the freedom to design a school 
accountability system for your State without any regulatory oversight 
by the U.S. Department of Education, what would that system look like? 
In broad strokes.
    Answer 2. The design of an effective accountability system must 
start with the end in mind. In 1813, John Adams stated:

          ``The object [of my education bill was] to bring into action 
        that mass of talents which lies buried in poverty in every 
        country for want of the means of development, and thus give 
        activity to a mass of mind which in proportion to our 
        population shall be the double or treble of what it is in most 
        countries.''

    If that is a founding principle of public education then we must be 
focused on that outcome. Success in achieving that goal should be 
measured by supporting college, career, and life ready graduates who 
can use their knowledge and talents to take on the challenges and 
opportunities of the world where they live and work. It would make 
sense to have an accountability system aligned to that desired goal and 
those outcomes.
    To accomplish that we must have multiple measures drawing from what 
research has shown are valid indicators of readiness. That research 
exists and clearly indicates one test score, one piece of demographic 
data or one non-academic indicator, such as attendance, does not 
provide a complete picture. Creating an accountability system that 
collects and analyzes a number of valid indicators is critical. 
Utilizing a formula that analyzes the information not to label a 
system, but to support the success of that system must be the focus. 
Knowing a school is an A, B, or F tells me nothing about the system's 
weaknesses and strengths. In the compliance heavy NCLB system a great 
deal of emphasis was on one test score as the determiner of a school's 
success in meeting all children's needs.
    The lesson we learned during that period in education is an over 
reliance on one indicator, may result in the weakening of areas of 
strength due to neglect, and thus damage the entire balance of the 
system. Utilizing multiple indicators, in for instance a dashboard 
approach, would provide a balanced and transparent view of the school. 
It would allow focused supports to be provided in crucial areas while 
still monitoring and sustaining all other critical indicators. 
Identifying the most at need schools (bottom 5 percent) is still 
possible by identifying those schools where a certain percentage of 
indicators are below acceptable range. These schools would warrant more 
intense and comprehensive interventions.

    Question 3. The NPRM allows public and tribal schools that provide 
instruction in a Native American language to assess student proficiency 
using assessments in that Native language. But the NPRM also sets out a 
number of requirements before such Native language assessments can be 
approved and used. In Alaska, we have a very few schools that teach 
academic content through the Alaska Native language of the community 
but Native leaders in all regions of the State are working to create 
and expand those opportunities. Knowing that there are a number of 
long-standing Native language immersion schools in Arizona, such as 
those serving Navajo children, have you had the opportunity to 
collaborate with Arizona's Native educators leaders in reviewing that 
section of the NPRM? If so, what conclusions have you drawn? And, do 
you know whether the School Superintendents Association has reached out 
to the National Indian Education Association to consult with them and 
perhaps provide comments to that section of the NPRM?
    Answer 3. I can provide limited input regarding proposed Department 
of Education regulations dealing with requirements for the approval and 
use of Native language assessments. I have connected with 
superintendents from districts in Arizona who serve a high percentage 
of Native language students, but these individuals are not active in 
the Indian Education Association. Some of these Arizona districts are 
working with their communities on programs such as dual language 
program (Navajo and English), but have not addressed the assessment 
issue. However, local control is an important element as each community 
addresses how to support local needs and goals in this area; therefore, 
prescriptive Federal regulations can impede this work.
    From the AASA perspective, the association did talk with the 
National Association of Federally Impacted Schools, which covers Impact 
Aid districts. Impact Aid districts do include districts serving Indian 
reservations. AASA, however, has not had any explicit conversations 
with the National Indian Education Association.

    [Whereupon, at 11:36 a.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
